<html>
<title> - CORONAVIRUS PREPAREDNESS AND RESPONSE (Day 1)</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                        CORONAVIRUS PREPAREDNESS
                              AND RESPONSE

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           MARCH 11-12, 2020

                          (A Two Day Hearing)

                           Serial No. 116-96

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                 Available on: http://www.govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov                             
                             
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-428 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------



                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Ro Khanna, California                Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Clay Higgins, Louisiana
Peter Welch, Vermont                 Ralph Norman, South Carolina
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Jimmy Gomez, California              Fred Keller, Pennsylvania
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California
Deb Haaland, New Mexico

                     David Rapallo, Staff Director
              Daniel Rebnord, Subcommittee Staff Director
                 Alexandra Golden, Chief Health Counsel
              Richard Trumka, Subcommittee Staff Director
                          Amy Stratton, Clerk

               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                                 ------                                
                        
                        
                        C  O  N  T  E  N  T  S

                              ----------                              

                         March 11 and 12, 2020
                           (Day 1 and Day 2)

                                                                   Page

                               Witnesses

Dr. Anthony Fauci, Director, National Institute of Allergy and 
  Infectious Diseases, National Institutes of Health
    Oral Statement...............................................     5
Dr. Robert Redfield, Director, Centers for Disease Control and 
  Prevention
    Oral Statement...............................................     6
Dr. Robert Kadlec, Assistant Secretary, Preparedness and Response 
  Department of Health and Human Services
    Oral Statement...............................................     7
Dr. Terry M. Rauch, Acting Deputy Assistant Secretary of Defense 
  for Health Readiness Policy and Oversight Department of Defense
    Oral Statement...............................................     8
Mr. Chris Currie, Director, Emergency Management and National 
  Preparedness Government Accountability Office
    Oral Statement...............................................     9

* The prepared statements for the above witnesses are available 
  at: docs.house.gov.

                           Index of Documents

                              ----------                              

The Documents listed below are available at: docs.house.gov.

  * Letters sent from Chairwoman Maloney to HHS and CDC on March 
  3, 2020; submitted by Chairwoman Maloney.

  * Statement from the National Nurses Union; submitted by Rep. 
  Wasserman Schultz.

  * Article, Congressional Doctor Predicts 70-150 Million COVID  
  19 Cases; submitted by Rep. Tlaib.

  * Statement from AFTE; Rep. Sarbanes.
  * Questions for the Record: to Dr. Anthony Fauci, Director, 
  National Institute of Allergy and Infectious Diseases, National 
  Institutes of Health; submitted by Chairwoman Maloney.
  * Questions for the Record: to Dr. Robert Kadlec, Assistant 
  Secretary for Preparedness and Response, Department of Health 
  and Human Services; submitted by Chairwoman Maloney.
  * Questions for the Record: to Dr. Robert Redfield, Director, 
  Center for Disease Control and Prevention; submitted by 
  Chairwoman Maloney.

 
                        CORONAVIRUS PREPAREDNESS
                              AND RESPONSE
                                (Day 1)

                              ----------                              


                       Wednesday, March 11, 2020

                   House of Representatives
                  Committee on Oversight and Reform
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m., in 
room 2154, Rayburn Office Building, Hon. Carolyn Maloney,
    [chairwoman of the committee] presiding.
    Present: Representatives Maloney, Lynch, Cooper, Connolly, 
Krishnamoorthi, Raskin, Rouda, Khanna, Plasket, Welch, 
Wasserman Schultz, Haaland, Pressley, Kelly, Sarbanes, Gomez, 
Jordan, Foxx, Massie, Hice, Grothman, Comer, Green, Norman, 
Cloud, Roy, Keller, Steube, Armstrong, and Higgins.
    Chairwoman Maloney. The Committee will come to order. 
Without objection, the Chair is authorized to declare a recess 
of the Committee at any time. I want to inform members that we 
have a change in schedule. As we explained in the hearing memo, 
we were planning to do opening statements from 9:30 a.m. to 10 
a.m. and testimony and questions from 10 a.m. to 1 p.m.
    This morning, we were informed that President Trump and 
Vice President Pence have called our witnesses to an emergency 
meeting at the White House. We don't know the details, just 
that it is extremely urgent. Now the witnesses have to leave at 
11:45 a.m. In light of this sudden change, we are going to 
significantly reduce opening statements. Instead of doing 30 
minutes, we will do 10 so we can get right to questions.
    For the witnesses, we have your written statements so 
please keep your oral statements as brief as possible. At 11:45 
p.m., we will recess the hearing and we will work with the 
agencies to determine when the witnesses can return. With that, 
I recognize myself for a few remarks. I want to thank everyone 
for being here for this extremely important hearing. Let me say 
at the outset that our thoughts go out to everyone who is sick 
or in isolation, including two members of our very own 
Committee, our colleagues Representative Meadows and 
Representative Gosar, who cannot be here to participate in 
today's hearing. We are now in the middle of a global health 
crisis. Our response as a Nation must be swift, it must be 
coordinated, and it must be based on science and the facts. 
That is what we all want on a bipartisan basis.
    Unfortunately, when we look at the last three months 
objectively, it is clear that strategic errors and a failure of 
leadership impaired our Nation's ability to respond to this 
outbreak. This in turn endangers us all. Let's start with 
testing. The Trump Administration's testing for the Coronavirus 
has been severely inadequate, plagued by missteps and resulted 
in substantial deficiency in our ability to determine who may 
be infected. Yesterday, Director Redfield testified that CDC 
has tested about 4,900 people.
    By comparison, South Korea tested more than 66,000 people 
with just one--within just one week of its first case of 
community transmission. South Korea has now tested more than 
196,000 people but we are not anywhere close to that. They 
started conducting drive-thru testing, but people here in the 
United States can't even get tested by their own doctors. This 
is the United States of America. We are supposed to be leading 
the world. Instead, we are trailing far behind. How did South 
Korea test so many people so quickly, but we didn't even test a 
fraction of that number? Why did it take so long?
    We must do better. Unfortunately, these delays have been 
systemic. Just last week, the Trump Administration promised to 
deliver a million tests by the end of the week, but it did not 
even come close. On Sunday, they admitted that they delivered 
only 75,000 tests. That is more than 900,000 tests short. And 
this was their own stated goal to the American people. Now, the 
Trump Administration is saying that they have distributed 1 
million tests and will be distributing 4 million by the end of 
this week, but that is difficult to believe given their record. 
We need facts, we need information, and we need it quickly. If 
we don't have testing, we don't know the full scope of the 
problem.
    And if we don't test people, then you have no idea how many 
people are infected. We don't even know where community 
transmission is happening. We don't know where to direct 
resources. We are operating in the dark. My question is whether 
the Administration and President Trump is exacerbating the 
crisis by downplaying it? Over and over again, we have heard 
blatant misstatements that consistently diminish this crisis 
and negatively affect our preparations and response.
    Last week, President Trump said and I quote, ``anybody that 
needs a test gets a test.'' He said the tests are beautiful. He 
was absolutely wrong. My constituents are telling me they can't 
get tested. The same is true of President Trump's top adviser 
Larry Kudlow who made this incredible statement two weeks ago 
and I quote, ``we have contained this. I won't say are tight, 
but pretty close to airtight. The business side, the economic 
side. I don't think it is going to be an economic tragedy at 
all.
    The numbers are saying the U.S. is holding up nicely.'' He 
could not have been more wrong. The stock market just had one 
of the worst weeks in history with the single biggest point 
drop of all time in history. The President and his aides may 
think they are helping with political spin and happy talk, but 
the American people want the truth. We need the facts. We need 
accurate information. The CDC has now reported more than 647 
cases across 36 states, but according to experts at John 
Hopkins and others, the real number is far higher.
    My home state of New York has 173 confirmed cases, and 
every Member of Congress is worried about their constituents. 
As we proceed this morning, I would like to recognize several 
of our Subcommittee chairman for their tremendous leadership. 
This is truly a team effort. Chairman Lynch of the Security 
Subcommittee held a hearing last week on our Nation's 
biodefense capacity and he paved the way for today's hearing. 
Chairman Krishnamoorthy of the Economic and Consumer Policy 
Subcommittee has been focused on the effects of this crisis on 
consumers. And Chairman Connolly of the Government Operations 
Subcommittee has been working with states and localities on the 
front lines of our response efforts.
    I now recognize our distinguished Ranking Member. I would 
like express my regret that he is moving to chair yet another 
Committee. Ranking Member Jordan.
    Mr. Jordan. Thank you, Madam Chair. Thank you to our 
witnesses for being here today and for all your hard work to 
ensure the safety of the American public and combat the spread 
of this Coronavirus. We recognize that your task is ongoing. I 
hope today's discussion will be as efficient as possible so you 
can get back to work doing the important work that you are 
doing to help combat this.
    I also want to express my condolences to the Americans who 
have lost loved ones, as the Chair indicated earlier, from the 
Coronavirus and we pray for those families. We must continue to 
support the Trump Administration and its work to protect the 
health and safety of the American people. As Vice President 
Pence has reiterated and I hope our experts will explain today, 
the risk to the American people of contracting the Coronavirus 
remains low.
    Even still, as the outbreak continues, it is important for 
all Americans to follow the best practices to maintain good 
hygiene. No. 1, you can protect yourself and your family by 
practicing proper hand washing techniques and washing your 
hands often. Second, avoid crowds as much as possible and stay 
home if you are in fact sick. And third, we can protect 
ourselves from the virus like we do other viruses, for 
instance, cover your coughs and sneezes, avoid close contact 
with those who are sick, and clean and disinfect your home 
frequently. All good common-sense protocols and procedures that 
we should be implementing.
    These steps are common sense. They make sense and they help 
prevent the spread of the virus. The risk to Americans remains 
low in large part due to the leadership and early action of the 
Administration and his team, many of whom are here with us 
today. When the threats started to emerge from China, which is 
ground zero for this virus, President Trump recognized the 
importance of limiting the exposure from those who had traveled 
there to the American people. That decisive action brought our 
public health professionals important time to get a head start 
in preparing for the virus here at home. Since that time, we 
have seen clusters of community spread. In other words, 
instances where people have become sick without traveling to 
affected areas in the world.
    There are important steps we can all take to prevent 
community spread. Those who are experiencing the Coronavirus in 
their communities can also take steps to limit the spread of 
this virus. Today, I look forward to our experts offering some 
specific recommendations on how people can minimize the spread 
of the Coronavirus. Also want to commend President Trump and 
Vice President Pence for safely repatriating the passengers 
from The Diamond Princess cruise ship in California. Their 
leadership drew praise from California Governor Newsom.
    I also want to commend the American pharmaceutical industry 
for working to deliver results to fight this virus. The 
innovation that drives our economy also helps to advance 
innovations in public health. As HHS Secretary Azar has 
explained, our pharmaceutical industry has been developing test 
kits to distribute around the country. The Vice President 
explained yesterday that over 1 million test kits have been 
sent out to date. I hope we can learn more about the efforts to 
increase the number of these test kits that are going to be 
deployed. We should also understand that an increase in test 
kits will inevitably show an increase in positive cases around 
the country.
    Last, I want to say that often times in this Committee, we 
disagree vigorously on many hot-button issues. We don't always 
see eye-to-eye on matters of oversight. But on this issue, I 
think we should all work together for the health and well-being 
of every American. We should not play politics with the 
Coronavirus. We should not use it as a reason to advance 
partisan objectives.
    Now is the time for us to come together under President 
Trump's leadership and work to help all Americans. With that, I 
would like to thank our witnesses again for their work. We are 
grateful to you and your teams. Please relay our gratitude back 
to the people who work for you, and work for our country, and 
work for the American citizens. Madam Chair, I yield back.
    Chairwoman Maloney. Thank you very much, and I would like 
to begin by introducing our witnesses today. Dr. Anthony Fauci 
is the Director of the National Institute of Allergy and 
Infectious Diseases at the National Institute of Health. He has 
served well over four Presidents. He is truly America's doctor. 
We are honored to have you testifying today. Thank you for 
coming.
    Dr. Robert Kadlec is the Assistant Secretary for 
Preparedness and Response a the Department of Health and Human 
Services. Thank you for coming. And Dr. Robert Redfield is the 
Director of the Center for Disease Control and Prevention. 
Thank you for being here today. And Dr. Terry M. Rauch is the 
Acting Deputy Assistant Secretary of Defense for Health 
Readiness, Policy and Oversight at the Department of Defense. 
Thank you for being here.
    Mr. Chris Currie is the Director of Emergency Management 
and National Preparedness for the Government Accountability 
Office. Thank you for being here.
    I will begin by swearing-in the witnesses. And if you will, 
all please rise and raise your right hand. Do you swear or 
affirm that the testimony you are about to give is the truth, 
the whole truth, and nothing but the truth so help you God?
    [Witnesses sworn.]
    Chairwoman Maloney. Let the record show that they answered 
in the affirmative. Thank you and please be seated. The 
microphones are very sensitive so speak directly in them and 
bring them closer to you. Without objection, your written 
testimony will be part of the record. Thank you all for being 
here. We appreciate your service. And with that, Dr. Fauci, you 
are now recognized to provide your testimony.

STATEMENT OF DR. ANTHONY FAUCI, DIRECTOR, NATIONAL INSTITUTE OF 
 ALLERGY AND INFECTIOUS DISEASES, NATIONAL INSTITUTE OF HEALTH

    Dr. Fauci. Thank you very much, Chairwoman Maloney, Ranking 
Member Jordan, and members of the Committee. Thank you for 
calling this hearing and thank you for giving me the 
opportunity to speak to you for a few minutes on the role of 
the NIH and the research involved in addressing the 2009 novel 
Coronavirus.
    The NIH is involved, as you know, in understanding the 
pathogenesis of how these viruses work, but also in developing 
countermeasures. Given the limited time, I would like to have 
my remarks confined to two aspects. One is the development of 
vaccines, what is the realistic expectations. And the other is 
the development of countermeasures in the form of therapeutics.
    With regard to vaccines, as I have mentioned publicly many 
times, we were able to very quickly go from an understanding of 
what this virus was, to what the genetic sequence was, to 
actually developing a vaccine. But there is a lot of confusion 
about developing a vaccine. In the next, I would say, four 
weeks or so, we will go into what is called a Phase 1 clinical 
trial to determine if one of the candidates, and there are more 
than one candidate, there are probably at least 10 or so that 
are various stages of development.
    The one that we have been talking about is one that 
involves a platform called messenger RNA but it really serves 
as a prototype for other types of vaccines that are 
simultaneously being developed. Getting it into Phase 1 in a 
matter of months is the quickest that anyone has ever done 
literally in the history of vaccinology. However, the process 
of developing a vaccine is one that is not that quick. So, we 
go into Phase 1. It will take about three months to determine 
if it is safe.
    That will bring us three or four months down the pike and 
then you go into an important phase called Phase 2 to determine 
if it works. Since this is a vaccine, you don't want to give it 
to normal, healthy people with the possibility that A, it will 
hurt them, and B, that it will not work.
    So, the phase of determining if it works is critical. That 
will take at least another eight months or so. So, when you 
have heard me say we would not have vaccine that would even be 
ready to start to deploy for a year to a year and a half, that 
is the timeframe. Now anyone who thinks they are going to go 
more quickly than that, I believe, will be cutting corners. 
That would be detrimental.
    What does that tell us? It tells us now the next month, the 
next several months, we are going to have to rely on public 
health measures to contain this outbreak. So, let me--and I 
will be happy to answer questions later. Let me just go on 
quickly to therapy. The timeline for therapy is a little bit 
different. The reason it is different is that you are giving 
this candidate therapy to someone who is already ill.
    So, the idea of risks and how quickly you determine if and 
when it works, is much more quickly than giving a lot of 
vaccine to normal people and determine if you protect them. 
There are a couple of candidates that are now already in 
clinical trial. Some of them in China and some of them right 
here in the United States, particularly in some of the trials 
that are being done in some of our clinical centers including 
the University of Nebraska. It is likely that we will know if 
they work in the next several months.
    I am hoping that we do get a positive signal. If we do, 
then we may, and I underline may so that it doesn't get in 
misinterpreted, have therapy that we could use. But that needs 
to be proven first.
    So, in summary, the work that is being done at the NIH is 
involved both in the development of a vaccine in the long term 
and in the development, hopefully, of therapies in the shorter 
term. I will be happy to answer questions after all the 
presentations. Thank you.
    Chairwoman Maloney. Dr. Redfield, you are now recognized 
for your testimony.

STATEMENT OF DR. ROBERT REDFIELD, DIRECTOR, CENTERS FOR DISEASE 
                     CONTROL AND PREVENTION

    Dr. Redfield. Thank you very much. Good morning, Chairwoman 
Maloney, and Ranking Member Jordan, and members of the 
Committee. Thank you for the opportunity to share CDC's role in 
the U.S. response to this novel Coronavirus. CDC is a science-
based, data-driven organization. Science and data drives our 
decisionmaking and will continue to do so as we form changing 
guidelines and recommendations. This is a new virus and many 
uncertainties remain. Our public health response must be 
flexible.
    From the outset, CDC and the U.S. Government partners 
implemented an aggressive multi-layer strategy to slow the 
introduction of this virus to the United States to buy time for 
our scientists to learn how this virus behaves, to prepare our 
Nation's public health infrastructure and healthcare system for 
the possibility of a global pandemic that would impact your 
communities, and to educate Americans on how best to prepare 
for eventual disruptions to their daily life and the potential 
risk to their families.
    The Administration's interagency containment strategy 
relied on evidence-based public health interventions. 
Initially, early case recognition, isolation, and contact 
tracing, travel advisories, and targeted travel restrictions, 
the use of quarantine for individuals returning from 
transmission hot zones such as China, Japan, and now the Grand 
Princess. Absence of immunity and treatment, our Nation's 
public health response has relied on traditional public health 
activities.
    As I said, early diagnosis, case isolation, contact 
tracing, and targeted mitigation to slow the emergence of this 
virus in the United States. On February 25, this global 
outbreak reached an inflection point. This was the first day we 
saw more cases outside of China than inside of China. We 
observed rapid wide spread person-to-person transmission in 
South Korea, Iran, and Italy, and long before the first case of 
communities spread in California.
    Science and data collected from here in the United States 
and abroad are revealing certain characteristics about this 
virus. At first, the Chinese scientists reported fewer than 30 
cases of pneumonia combined to one province, the Hubei 
province. Today, there is more than 110,000 confirmed cases 
worldwide, and yesterday 99 percent of the new cases that 
occurred in the world were outside of China. This virus spreads 
through respiratory droplets, sneezing, coughing, and hand 
contamination.
    Asymptomatic transmission is possible. Reports out of China 
looked at more than 70,0000 individuals with this infection and 
found that 85 or 80 percent of the patients actually developed 
mild illness and recovered, while 10 to 20 percent developed 
serious illness. Children and young people seem not to get 
sick. This disease disproportionately affects older adults and 
particularly those with serious underlying health conditions.
    Two months ago, Chinese scientists shared the genome 
sequence of the virus to the world, and within a week, CDC 
scientists developed a diagnostic test that is now being used 
in more than 75 U.S. public health labs across 50 states with 
the capacity in the public health system to test up to 75,000 
people. As of today, CDC has received confirmation of more than 
990 cases of COVID-19 in 38 states plus the District of 
Columbus. It is with great sadness that I report now 31 deaths 
in the United States.
    As we experience the growing community spread in the United 
States, the burden of confronting this outbreak is shifting to 
states and local health professionals on the front lines. We 
appreciate your support to increase the public health capacity 
of your communities and our Nation. This difficult, critical 
decisions are being made by state and local leaders to mitigate 
the spread and CDC continues to provide guidance and support as 
requested.
    There is not a one-size-fits-all approach to the mitigation 
decisions that need to be made. They need to be made based on 
the local situation by local health authorities and civic 
leaders. CDC has put more than 630 staffers in the field to 
support the state and local Health Departments in the 
repatriation efforts.
    Finally, CDC is committed to this mission. We will continue 
to work 24/7 to protect the American people from this 
significant global health threat. Thank you, and I look forward 
to your questions.
    Chairwoman Maloney. Thank you. Dr. Kadlec, you are now 
recognized for your testimony.

     STATEMENT OF DR. ROBERT KADLEC, ASSISTANT SECRETARY, 
   PREPAREDNESS AND RESPONSE, DEPARTMENT OF HEALTH AND HUMAN 
                            SERVICES

    Dr. Kadlec. Thank you, Chairman Maloney, Ranking Member 
Jordan, and the distinguished members of the Committee. My 
remarks will be very brief because I think in some ways we want 
to retain all the time for your questions, but I do want to 
acknowledge the vital role Congress has played in this outbreak 
that began in 2002 with the passage of the Bioterrorism Act 
that created critical programs like the Public Health Emergency 
Preparedness Program at CDC, the Hospital Preparedness Program 
that I manage, and as well as a number of other critical pieces 
of legislation such as Project Bioshield, the Pandemic All 
Hazards Preparedness Act, and its reauthorization most recently 
as the Pandemic All Hazards Preparedness and Advancing 
Innovation Act, and finally the Public Readiness and Emergency 
Preparedness Act.
    All these tools that you have given us have been vital in 
confronting this virus in this current outbreak. I also want to 
acknowledge the role that additional moneys that you provided 
in supplementals over the years for the H1N1 pandemic in 2009, 
for the Ebola outbreak in 2014 that helped us create a national 
Ebola treatment network that has been vital to manage and care 
for patients who have been afflicted with this disease.
    As far as my role in this activity at this point, I have 
four principal functions. My first and foremost responsibility 
as we transition from containment of this disease to a hybrid 
approach and strategy of containment and mitigation is to be 
the incident management for the Secretary of Health and Human 
Services to ensure that we have a unified, coordinated, and 
synchronized effort across HHS and across the U.S. Government, 
consistent with the national response framework and emergency 
support function number eight for medical and public health 
preparedness and response. I also basically support the 
healthcare system through the Hospital Preparedness Program and 
our regional disaster response network that we have created 
with your support.
    Then third, it is basically work with NIH, with FDA, with 
our DOD colleagues to rapidly develop, accelerate the 
development of therapeutics, diagnostics, and vaccines that 
could be used in this outbreak.
    And finally, providing direct support to state and local 
entities. During this most recent event with the Grand Princess 
that is now docked in Oakland, we are working directly with the 
state of California, the city of Oakland, and with our 
interagency partners to safely disembark all those passengers, 
American and non-American, and manage the crew to ensure that 
they are safe and return to their homes, but more importantly 
protecting the communities that will be receiving these 
individuals.
    So, with that, I will yield the remaining of my time back 
to you, Madam Chairman, and thank you.
    Chairwoman Maloney. Thank you very much. Dr. Rauch, you are 
now recognized for your testimony.

   STATEMENT OF DR. TERRY M. RAUCH, ACTING DEPUTY ASSISTANT 
SECRETARY OF DEFENSE FOR HEALTH READINESS POLICY AND OVERSIGHT, 
                     DEPARTMENT OF DEFENSE

    Dr. Rauch. Chairman Maloney, Ranking Member Jordan, and 
members of the Committee, thank you for this opportunity. The 
Department's top priority is the health and safety of our 
personnel around the world. To address the COVID-19 outbreak, 
we immediately disseminate for self-protection guidance 
beginning early in the outbreak and continue to issue a series 
of guidance as the situation evolves.
    The Department remains aligned with guidance from the CDC, 
while allowing limited location and command flexibility as 
required by mission or local circumstances. In the area of for 
self-protection, the Department issued an initial guidance on 
January 30, 2020 that addressed the current situation at the 
time, the risk to DOD personnel, individual prevention and 
protection measures, healthcare information, patient screening 
and isolation information, and information on diagnosis, 
treatment, and reportable medical events.
    The guidance also listed the CDC travel advisory level for 
China and referred to the CDC criteria for identifying a person 
at risk or under investigation. The guidance also directed 
personnel on actions to take if they suspect they have had an 
increased risk of exposure due to travel or close contacts.
    Following the initial for self-protection guidance, on 
February 7, 2020 we issued guidance for monitoring personnel 
returning from China. This guidance remained in step with the 
CDC and provided further measures to prevent the spread of the 
disease. Furthermore, the guidance directed the identification 
of service members and a 14-day restriction of movement and 
monitoring of service members returning from mainland China 
after February 7, 2020. It has specified actions by the service 
member during their restriction of movement to reduce the 
potential spread of disease.
    The guidance is recommended to DOD civilian employees, and 
contractor personnel, and family members returning from China 
follow existing CDC guidance. On February 25, 2020, the 
Department issued additional guidance providing a risk-based 
framework to guide commanders in implementing health protection 
measures based on local circumstances and their command 
mission.
    The entire series of for self-protection guidance may be 
found on our defense.gov website. As the Department assesses 
and manages risk to personnel and mission, the capability to 
diagnose COVID-19 to better inform treatment decisions and help 
track disease spread is vital, and one important factor is 
diagnostic testing capabilities. Currently the Department has 
13 labs approved to perform COVID diagnostic testing.
    The Department is also working quickly to develop 
expeditionary lab kits which can be used in the field, military 
environment to mitigate risk to the Force and mission.
    Finally, as we know there is no vaccine to protect the 
Force. There is no antiviral to treat the Force. Therefore, the 
Department is working on several vaccine initiatives and an 
antiviral treatment to protect and treat the Force. This is in 
collaboration with the interagency efforts.
    I am grateful for the opportunity to provide further detail 
on our efforts to contain and mitigate this outbreak. Thank you 
to the members of this Committee for your commitment to the men 
and women of our Armed Forces and the families who support 
them.
    Chairwoman Maloney. Thank you. Mr. Currie, you are now 
recognized for your testimony.

 STATEMENT OF CHRIS CURRIE, DIRECTOR, EMERGENCY MANAGEMENT AND 
    NATIONAL PREPAREDNESS, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Currie. Thank you, Madam Chairwoman, Mr. Ranking 
Member, other members of the Committee. As you know, GAO's role 
is to provide oversight of other Federal agencies. So, what I 
want to do today is I am talking about two things. First is a 
report we issued just two weeks ago on the national biodefense 
strategy for the Federal Government, and second is to offer 
some observations based on decades of work we have done, 
looking at past pandemics and outbreaks and public health 
preparedness.
    For decades, we have been concerned about the U.S. 
preparedness for these types of events. Unlike cyber events or 
natural disasters, they are rare, which makes it incredibly 
difficult to maintain focus on these types of things and avoid 
complacency setting in once an outbreak is contained. Also 
biodefense is extremely fragmented across the Federal 
Government.
    There is over two dozen Presidential appointed officials 
and agencies that have some sort of roles or responsibilities 
in biodefense, and so coordination just at the Federal level is 
extremely difficult, let alone state, local, and private level 
as well. The good news is the strategy that was issued in 2018, 
according to our assessment, is the most comprehensive to date 
that we have seen. It does a good job of defining roles and 
responsibilities, and steps agencies need to take to better 
coordinate.
    We did identify some challenges that we were concerned 
about. One of those is we still don't see a good mechanism 
across agencies to coordinate budgets. DHS, CDC, HHS, USDA, 
they all have separate budgets. They can't tell each other what 
to do or how to spend their money, and so some sort of 
centralized oversight mechanism across that is still critical 
and we recommended that they take steps to address that.
    I would like to pivot and talk a little bit about the 
current outbreak and make it clear that we don't have enough 
information to conduct a full out assessment of the response 
right in the middle of the response. That is very difficult. 
But some of the challenges we are seeing in the public are 
highlighted by decades of work we have done over the years and 
past outbreaks and frankly things that we have been concerned 
about if we had a large domestic outbreak here in the U.S. The 
first is roles and responsibilities across the Government.
    While I think it is pretty clear upfront that the public 
health emergency HHS is the lead, many questions are still 
being raised about the roles of other Departments, particularly 
as this becomes a bigger domestic issue.
    For example, the Department of Homeland Security, questions 
have been raised about whether a Stafford Act Declaration 
should be brought into play like a natural disaster to bring in 
additional funding and authorities that provides who 
communicates with the public at the Federal, state, and local 
level has been a challenge. This is something we have pointed 
out before.
    On the issue of testing, you know, we have pointed out that 
HHS has provided over $20 billion since 9/11 in preparedness 
funding to states and locals. That number has decreased over 
the years. I think that, you know, this is a direct correlation 
to the investments we make in preparedness.
    Again, it is very, very difficult to sustain these given 
other priorities when we don't have outbreaks all the time. The 
last thing I would just mention really quick is moving forward 
as we conduct after action reviews and exercises.
    So, there have been after action reviews done after prior 
outbreaks. What we see in the emergency management field is 
that often the after action reviews are conducted really well 
and then once the outbreak is stopped or the disaster is over, 
there is no followup on the gaps that are identified in the 
years to come.
    So, this completes my prepared remarks. I look forward to 
your questions.
    Chairwoman Maloney. Thank you all for your testimony. I now 
recognize myself for questions. I want to ask about testing. I 
am being asked over and over again why the United States is so 
far behind other countries and why the American people cannot 
get tested.
    Our first case of Coronavirus was on January 21 and the 
U.S. has tested approximately 4,900 people so far. In contrast, 
South Korea has already tested almost 200,000 people. They can 
test 15,000 people a day. South Korea can test more people in 
one day than we tested over the past two months. So, Dr. Fauci, 
why are we so far behind Korea in testing and reporting this 
crisis?
    Dr. Fauci. Thank you very much, Chairwoman Maloney. I 
would--I don't like to pass the buck, but Dr. Redfield has the 
numbers and a little map that he might want to show you about 
that because I don't have that in front of me.
    Chairwoman Maloney. OK. Is the worst yet to come, Dr. 
Fauci?
    Dr. Fauci. Yes, it is.
    Chairwoman Maloney. Can you elaborate?
    Dr. Fauci. Well, whenever you have an outbreak that you can 
start seeing community spread, which means by definition that 
you don't know what the index case is and the way you can 
approach is by contact tracing, when you have enough of that, 
then it becomes a situation where you are not going to be able 
to effectively and efficiently contain it. Whenever you look at 
the history of outbreaks, what you see now in an un-contained 
way--and although we are containing it in some respects, we 
keep getting people coming in from the country that are travel-
related.
    We have seen that in many of the states that are now 
involved. Then when you get community spread, it makes the 
challenge much greater. So, I can say we will see more cases 
and things will get worse than they are right now.
    How much worse it will get will depend on our ability to do 
two things, to contain the influx in people who are infected 
coming from the outside and the ability to contain and mitigate 
within our own country. Bottom line, it is going to get worse.
    Chairwoman Maloney. Well bottom line, Mr. Fauci, if we 
don't test people, then we don't know how many people are 
infected. Is that correct?
    Dr. Fauci. That is correct. And as I am sure that Dr. 
Redfield will tell you, looking forward right now, as 
commercial entities get involved in making a large amount of 
test getting variable--when you do two aspects of testing, one 
a person comes in to a physician and asks for a test because 
they have symptoms or a circumstance which suggests they may be 
infected.
    The other way to do testing is to do surveillance where you 
go out into the community and not wait for someone to come in 
and ask for a task, but you proactively get a test. We are 
pushing for that and as Dr. Redfield will tell you that the CDC 
has already started that in six sentinel cities and will expand 
that in many more cities.
    But you are absolutely correct. We need to know how many 
people, to the best of my ability, are infected, as we say, 
under the radar screen.
    Chairwoman Maloney. Now, I really want to get to South 
Korea and their 50 mobile testing sites that they have set up 
where people can just drive up, get a quick swab, get a test 
and results in two days. And this is a question to Dr. Fauci 
and to Dr. Redfield. These are centers that minimize the 
interaction between patients. It helps mitigate the risk. And 
why haven't we set up these mobile labs? Are we planning to set 
them up? Dr. Fauci and Dr. Redfield?
    Dr. Fauci. Well again, I will start by telling you, the NIH 
would in no way be responsible for setting that up. So, I can't 
tell you what I can do.
    Chairwoman Maloney. Dr. Redfield?
    Dr. Redfield. Just to say very quickly, CDC's role in this 
was--we very rapidly, within almost 7 to 10 days developed a 
test from an unknown pathogen once we had the sequence. We did 
that because we wanted to get eyes on it, CDC, so that the 
Health Departments across this Nation can send samples to us 
and we would test them.
    Second, we rapidly tried to expand that and scale it up 
with contractors so each public health lab in this country 
would have that test. During that process of quality control, 
we found out one of the reagents wasn't working appropriately 
and we had to modify that with the FDA that took several weeks 
to get that completed.
    But the test was always available in Atlanta, if you sent 
the sample to us, and there never was a time when the Health 
Department could not get a test. They had to send it to 
Atlanta. Now our Health Departments have 75,000 test. Most 
Health Departments now, over 75 Health Departments, have the 
test.
    Chairwoman Maloney. How many tests are we planning to 
produce in the United States?
    Dr. Redfield. Well from a public health point of view, we 
put out 75,000. The other side as Dr. Fauci said, which is 
really not what CDC does traditionally, is to get the medical 
private sector to have testing for patients. And when the Vice 
President brought all the testing companies to the White House 
last week, we got enormous cooperation from them all to work 
together.
    As we sit here today, Quest and LabCorp are now offering 
this test in their doctor's offices throughout this country. 
But it is not for an individual just to take a test, they need 
to go see a healthcare professional, have an assessment to 
determine whether a test is indicated, and then get that test.
    In New York, just so you know, on February 29, Harold 
Zucker, your Health Commissioner, asked if he could use our EUA 
to begin to get Wadsworth approved, and the FDA worked with him 
within one day and got their test up and running in the state 
of New York at the Wadsworth lab.
    So, we are working hard to get testing available. My role 
is to get it available for the public health system, and is Dr. 
Fauci said, start these large surveillance programs, but on the 
other side there is a private sector to get it to clinical 
medicine. And I think you will see that with LabCorp and Quest 
out, those tests are rolling out.
    Finally----
    Chairwoman Maloney. Will these that private labs be 
reporting and are they reporting into CDC their results?
    Dr. Redfield. We have set up now a surveillance system.
    Chairwoman Maloney. Are they reporting now?
    Dr. Redfield. It is being worked as we speak today. The 
LabCorp and Quest will--they dump into our national reporting 
base.
    Chairwoman Maloney. My time has expired and I recognize the 
distinguished member--oh, she left. OK. I recognize the 
gentleman from the great state of Tennessee, Mr. Green is 
recognized.
    Mr. Green. Thank you, Madam Chair, and thank the witnesses 
for being here. I am incredibly disappointed in the 
politicization of this COVID-19 response. The 24/7 criticism 
the President is undergoing is unwarranted at a minimum and 
absolutely maligns the hard work done over years of our 
Nation's doctors and scientists at places like the CDC, the 
NIH, the FDA, the HHS, DHS, FEMA, and DOD have prepared for 
just such an eventuality.
    Make no mistake about it, this virus is a serious problem, 
but that concern was immediately shown by our President as 
evidenced by his historic response and I would like to take a 
second to correct the record. On December 31, Wuhan officials 
posted the first notice saying they were investigating a 
pneumonia outbreak.
    On January 7, the CDC established an incident management 
system, just seven days later. On January 17, CDC sent 100 plus 
staffers to specific airports in the United States to screen 
all people coming from Wuhan. On January 21, just three weeks 
after the announcement, the CDC activated its Emergency 
Operations Center.
    On January the 29, the President established the 
Presidential Task Force. On January 30, still less than a month 
from the initial announcement, the State Department issued a do 
not travel warning to China. January 30, the World Health 
Organization announced that the Coronavirus is a public health 
emergency of international concern, meaning before the World 
Health Organization even announced a global concern, the 
Administration was working on its response for almost a month 
and had already established a Presidential Task Force.
    On January 31, to the cries of racism, President Trump 
proactively suspended entry of foreign nationals who had been 
to China in the last 14 days. On the 31st, the President issued 
quarantines, and through Secretary Azar, a public health 
emergency for the entire Nation. On February 11, the World 
Health Organization named the virus COVID-19. Let that sink in, 
the Administration's first response a week after the Wuhan 
announcement.
    The virus hadn't even been named by the World Health 
Organization yet. It isn't named until day 42. Meanwhile the 
CDC, the NIH, and all the agencies of our scientific community 
with acronyms that boggle the mind, have been working 
feverishly to sequence the RNA of the virus, to get its 
proteins, messenger RNA sequence and get a vaccine going. On 
February 24, the President unveiled the initial plan.
    Yet according to the leadership of the other party, our 
President has failed us months of response, and yet they are 
accusing our President of failing us. On February 26, the 
President appointed the Vice President head of the whole of 
Government response. That appointment is in keeping with the 
2015 Obama era Blue Ribbon Panel on Biodefense.
    On February 29, 60 days after the Chinese announcement, 
sadly America lost its first victim to COVID-19. So, 53 days 
before American lost a single life to COVID-19, the 
Administration was already working diligently to prepare our 
country. You have heard the witnesses describe the Herculean 
efforts their various departments are taking to protect the 
lives and health of Americans.
    I want to thank the dedicated men and women of CDC, NIH, 
FDA, HHS, DHS, FEMA, and DOD for the years of work that has 
gone into preparing for this type of effort, and their tireless 
24/7 response since the announcement just 71 days ago.
    America will lose lives to this virus, but as was noted by 
Obama appointee and former Director of the CDC, Tom Frieden, 
had the President not responded so quickly, we would not have 
been prepared as we are and more lives would have been lost. 
Madam Chairman, I yield.
    Chairwoman Maloney. Thank you. I now recognize the 
gentleman from Massachusetts, Congressman Lynch. He is 
recognized for five minutes and I want to thank him for his 
help in preparing this hearing. Thank you.
    Mr. Lynch. Thank you, Madam Chair, and thank to the 
witnesses. I want to echo the call for unity that was expressed 
by the ranking member early in this hearing. I am proud to say 
that every single member of this Committee, Democrat and 
Republican, voted for $8.3 billion to deal with the 
Coronavirus.
    We all did so, I think, consistent with your request from 
our public health officials. I think America is best when we 
have a unity of purpose, a singularity of mission, and we are 
all on board. But that much being said, I have to say that the 
President's statements from the beginning of this has been 
contrary to the direction that you have given us.
    The President on March 6 told the people in my district 
publicly that the tests were ready. ``Anybody who wants a test 
can go be tested. They are beautiful tests, beautiful tests.'' 
That is not a medical term. So, my constituents went to their 
local health centers, went to their hospitals, there were no 
tests, zero, zero. I know they are rolling out now, but this 
was back on the 6th. That is not a good situation.
    He said this in front of some of you at a public hearing at 
a press conference and I saw no one step up and say, no, the 
President wasn't correct. The tests are not there. They are not 
ready. They are not beautiful. They are not available. So, we 
need a unity of purpose but we are not going to get that when 
the President is telling people that the cases of Coronavirus 
are going down not up. They doubled yesterday in my district, 
doubled.
    I represent part of Boston. Myself and Ms. Presley share 
that city. It is not a backwater medically or technically. It 
is very advanced. The President has made some bizarre 
statements here. And look, I want to be together with my 
Republican colleagues but when the President said he has an 
uncle who went to MIT in the 1930's and that he has a natural 
affinity and ability for this, it has got to raise some red 
flags.
    We need you to step up. We need--and Dr. Fauci, you have 
been great on some of the stuff and pushing back. When the 
President said, we are going to get a vaccine fairly quickly, a 
matter of months, you know, you were good to step up and say 
no, it is going to be a year and a half. But you know, we 
really need honesty here.
    And when the President is making statements like this, we 
need pushback from the public health officials. You know, 
standing behind him and nodding silently or an eye-roll once in 
a while is not going to get it. We really need--you know, when 
I say things that are immediately considered political because 
I am a Democrat and I am elected, but you know, you have a 
certain level of credibility and honesty that I think that 
should be persuasive to the American people.
    So, I just ask you to be more forthright when the President 
makes statements like this. We need leadership but we need 
people to be very much aware of the dangers that are out there. 
You know, the cases are not going down. The American people 
should be aware of that. You should be forthright in explaining 
that.
    When the Secretary of the--when the President's economic 
director says we got this contained, not quite air tight but 
almost there, we need you, we need you our public health 
officials to step up and say that is not true. That is hurting 
us. That is making the spread of this virus, you know, more 
extended, more prolific, and more possible.
    The American people really have to step up here and make 
sure that, you know, they are aware of the dangers.
    Dr. Fauci?
    Dr. Fauci. I appreciate your comments, but I can tell you 
absolutely that I tell the President, the Vice President, and 
everyone on the task force exactly what the scientific data is 
and what the evidence is. I have never, ever held back telling 
exactly what is going on from a public health standpoint. Thank 
you.
    Mr. Lynch. Thank you.
    Chairwoman Maloney. The gentleman's time has expired. The 
gentlelady from North Carolina, Ms. Foxx, is recognized for 
five minutes.
    Ms. Foxx. Thank you, Madam Chairman, and since our current 
ranking member did not use all of his time, I may steal some of 
that in mine and since you went over a little also. Thank you. 
I want to thank our witnesses for being here and I think the 
very fact that we are having these hearings they are being held 
all over the Congress and the fact that there are the press 
conferences every day disputes what some of our colleagues are 
saying that the facts are not getting out there.
    I want to thank all of you all for being here and for 
telling the facts to the American people because I do think 
that is important. And I also want to thank my colleague from 
Tennessee for outlining what has been done because we tend to 
forget the good actions that have been taken because of the 
direct criticism of the President, which I think is totally 
unwarranted.
    I do think it is helpful that we explain the facts but also 
not scare everybody about this problem, but ask them to be 
sensible about what they are doing. Dr. Kadlec, I understand 
that BARDA amended its contracting process to place all 
proposals not related to Coronavirus in a queue until the 
threat of this virus subsides.
    Nobody has mentioned that but it is really all hands on 
deck and a focus totally on Coronavirus. Is that correct?
    Dr. Kadlec. Yes, ma'am. We are accepting additional 
proposals on other things related to non-corona activities, but 
right we are focusing on the immediate concern.
    Ms. Foxx. I know that BARDA is a fairly small entity and 
not a lot of attention has been paid to it, but we need our 
Nation to remain prepared for all threats including biological, 
nuclear, and influenza, and that is part of what BARDA does. 
So, would you mention what additional personnel authority BARDA 
needs to ensure that its response to COVID-19 and its normal 
work for biological and nuclear countermeasures is performed as 
well as possible?
    Dr. Kadlec. Yes, ma'am. Some of those authorities I think 
were given during the supplemental direct hiring authority. 
There is a proposal that was considered or a consequence of the 
21st Century Cures Act, which was creating an innovation 
platform and we probably need some relief in terms of Federal 
campaign cap waivers there.
    But I think quite frankly, what BARDA has been 
extraordinary in, in its very short history, is to basically 
get 50 approvals for a variety of countermeasures and devices 
that are vaccines, therapeutics, diagnostics in its very short 
history. It is the little engine that can.
    And I think it is one thing that working with NIH, and 
working with DOD, has been very successful to advance: things 
like, during the Ebola crisis, diagnostics; as well as what 
turned out to be the first FDA-approved licensed vaccine for 
Ebola.
    So, I think with resourcing, BARDA can and is a great part 
of the asper team that really, I think, does provide a 
significant capability in concert with NIH and with our DOD 
colleagues.
    Ms. Foxx. What you indicate is that there is a lot going on 
that people aren't aware of, groups of people working within 
the Government to try to anticipate the kinds of things that 
happen with the Coronavirus.
    We will never be able to stop all kinds of problems like 
this, but at least we have people working very, very 
effectively in these areas.
    Dr. Redfield, I think Dr. Fauci tossed over to you a few 
minutes ago the opportunity to speak about some of the issues 
and the concerns about getting the necessary medical supplies 
out to people. Would you like to expand on what you weren't 
able to talk about earlier?
    Dr. Redfield. I would just like to again try to emphasize 
the development that we did for the diagnostic test. And again, 
I do think we developed that very rapidly so that the public 
health community could have eyes on. That test was at CDC. We 
rapidly tried to get it to the Health Departments.
    During our quality control, we basically found one of the 
reagents wasn't working. But as I said today, we got the public 
health labs now throughout this country have adequate testing 
to do, their public health message and mission. The other side 
of the mission is the clinical mission and I think that is the 
concern of most American citizens. How do I get evaluated?
    And again, that really has to work through the private 
sector. It wasn't really the public health lead for CDC to get 
the laboratory tests, but I will say that the test we did 
develop, we published and let everybody use it. They could 
redevelop it.
    There was regulatory relief so any CLIA certified lab, 
according to the FDA, was given relief. They could develop the 
test just like we did and they could use it, and some 
universities have done that. We also were--there was relief to 
IDT, the manufacturer that made our test for public health 
purposes. They were given the regulatory relief to actually 
make that test and sell it to hospitals.
    That is the 1 million, 3 million tests that people refer to 
that are rolling out for that side. But most importantly, and 
we really need to give credit to the diagnostic companies of 
this Nation. When they met with the Vice President, they didn't 
come one company at a time.
    They had already agreed as a group they were going to 
figure out how to get this diagnostic test as rapidly as 
possible for the American public that needed it. And as I said 
today, yesterday they began that at both LabCorp and Quest. So, 
there should be, again, increase in availability across this 
Nation through the private sector.
    Ms. Foxx. I worry about what we heard when we discussed 
HR3, that were HR3 to become law, that we would lose much of 
that ability through the private sector to come up with the 
cures that we need to come up with. So, I am very pleased to 
see this cooperation with the public-private partnership. And 
thank you very much Madam Chairwoman, for your indulgence.
    Chairwoman Maloney. Thank you. The gentleman from 
Tennessee, Mr. Cooper, is recognized for five minutes.
    Mr. Cooper. Thank you, Madam Chair. I am delighted to hear 
the bipartisan praise of our public health workers, our 
professionals, and I hope that colleagues on both sides of the 
aisle will heed your good advice. First question, can U.S. 
doctors or patients order some of these tests from South Korea?
    Dr. Redfield. Important question when was asked by the 
chairwoman about the difference. The difference between the 
South Korean test and our test is they would have to go through 
our regulatory process in the FDA to get approval to use----
    Mr. Cooper. So, the answer is no.
    Dr. Redfield. Currently no under the regulatory issue.
    Mr. Cooper. OK. What are the names of these South Korean 
companies or enterprises that offer these tests?
    Dr. Redfield. The basic difference, Congressman, is when we 
CDC developed our test, if you give me a second, we developed 
to make sure it could work on the platforms that we would put 
in all the public health labs. Those platforms were based on 
our flu surveillance.
    So, we used a technique called thermal cycling, which is 
not a high-throughput. What the Koreans have done is they have 
used a high throughput platform, which is now being done in New 
York at the Wadsworth lab and now is being worked on by LabCorp 
and Quest to bring it in.
    So, it is a different platform. Roche is really the 
company, I think, I am not sure but I can get back to you, 
which was the platform that they used. It is a high throughput 
that allows many, many tests to be done a single time.
    Mr. Cooper. So, the South Koreans used a Swiss company, or 
wherever Roche is headquartered, to supply the need?
    Dr. Redfield. I will get back to you on the specific, sir. 
Make sure I don't misinform you.
    Mr. Cooper. So, American doctors or patients will have to 
Google this to try to find out because we are not eliciting 
this information today.
    Dr. Redfield. We will get back to you. But I will tell you 
LabCorp and Quest are up aboard and most American doctors 
either use one of those two lab services for their clinical 
practice.
    Mr. Cooper. Well, LabCorp and Quest are wonderful 
companies, but still, we are behind South Korea in terms of 
making testing available. So, how do we solve this gap?
    Dr. Redfield. What is going on right now, rather than the 
public health platform that we used--if we had developed a test 
on the Korean platform, none of our public health labs could 
have done it because they don't have the instrumentation.
    So, right now the private sector and certain labs have 
begun to transfer that to what we call the high throughput. And 
so you are going to see those high throughput, the same 
technology, is going to be approved in the United States and 
used by different private sector groups.
    Mr. Cooper. So, now finally we are turning toward what you 
call high throughput. And that maybe from Roche or may be from 
somewhere else or maybe at the Wadsworth lab now in New York, 
but finally one day we will have it.
    Dr. Redfield. I would try not to use the word finally. I 
guess I am not making myself clear. In my role to get it in the 
public health labs, we build it on a platform that they had the 
instrumentation.
    Mr. Cooper. What is the name of the company that supplied 
the faulty reagent?
    Dr. Redfield. Well, it was--we should be careful. The third 
control did not perform the way we wanted it to perform. There 
is two possibilities. One that that reagent at that time, there 
was a contamination, but the other possibility is biologic, 
that prime repairs folded on themselves and it didn't perform. 
It has been corrected and the new----
    Mr. Copper. Substandard, faulty, whatever name you want to 
use, what is the name of that company?
    Dr. Redfield. Well it was produced by IDT, you know, 
initially, and we have worked with them to correct that and CDC 
together.
    Mr. Cooper. Are there any plans to have drive-thru testing 
in America so that we do not panic emergency rooms when people 
come in and cough?
    Dr. Redfield. Not at this time. I think we are trying to 
maintain the relationship between individuals and their health 
care providers.
    Mr. Cooper. That is very interesting as a response. So, the 
professional monetary relationship comes before public health?
    Dr. Redfield. No, that was not my point. And maybe Dr. 
Fauci wants to comment. My point was, in order to assess risk 
and the appropriateness that these individuals get the proper 
care, we believe that this is something that still has value to 
be dealt with within the setting of clinical medicine. But I 
will ask Tony to comment.
    Dr. Fauci. It is exactly what you said. It is trying to 
preserve--not anything about monetary, that is really not a 
consideration at all. It is the trying to get people to at 
least on a telephone call basis to be able to phone their 
physicians ahead of time and say, I believe I have a situation.
    The physician would probably say, stay at home and give 
them the instructions of how to get a test. It is the 
relationship between the patient and the physician. I have no 
indication at all of the financial on that.
    Mr. Cooper. Well, most Americans don't really have a 
doctor. They rely on the ER to help and people are panicking 
ERs apparently. I see that my time has expired. I wish I had 
more time. Thank you, Madam Chair.
    Chairwoman Maloney. Thank you. The gentleman from Georgia, 
Mr. Hice, is recognized for five minutes.
    Mr. Hice. Thank you, Madam Chair. Thank each of you for 
being here. Dr. Fauci, you said earlier in answer to a question 
that you believe the worst is yet to come. I think everyone up 
here on both sides, we have been in briefings on this.
    Many of us on multiple briefings, and I think everyone up 
here would agree with you from the information we are hearing. 
I am curious though with the steps that were taken early on 
from declaring a public health emergency, restricting travel, 
giving each of your organizations freedom to move forward to 
try to combat this, and a host of other things, how important 
was were those decisions? Would we be in a worse situation, for 
example, had there not been some travel restrictions?
    Dr. Fauci. I believe we would be in a worse position, sir. 
But if I might, with respect, look ahead now, we need to do a 
lot more.
    Mr. Hice. Oh, there is no question.
    Dr. Fauci. And I would like to maybe use just a few seconds 
to make a point----
    Mr. Hice. Make it quick because I want concise answers 
because I want to yield.
    Dr. Fauci. I yield back to you.
    Mr. Hice. OK. Alright. Thank you. One of the issues, and I 
do appreciate the cooperating spirit here today. I know 
Schneider and I, we worked together to put together a bill, he 
led the way, on trying to make sure medical devices are here if 
there is a shortage and I think in that kind of spirit of 
cooperation, we all need to address this issue that is critical 
to our country. And I am curious specifically on the medical 
supplies and medical devices. Are we going to be facing a 
shortage?
    Dr. Fauci. Yes. I believe that if we have a major outbreak, 
we are definitely vulnerable to shortages, but Dr. Kadlec knows 
more about that than I do.
    Dr. Kadlec. Sir, I would just characterize it at this 
point, and again, the FDA has a responsibility to look at the 
entire supply chain of pharmaceuticals and drugs in the 
country. So, they have had that responsibly.
    I am looking at particularly the things that we need for 
this outbreak right now, and I just want to highlight the 
issues around some protective equipment, much of it is sourced 
from overseas.
    Some of it is domestically manufactured. And yes, we could 
have spot shortages. We are working with different companies 
and different sectors to enhance both their increased capacity 
here domestically, as well as obtaining supplies from overseas 
on affected areas to meet the demand.
    The most important to man is with health care workers, 
ensuring they have the respiratory protection and barrier 
protection so they can see and treat patients without the risk 
of getting infected and being lost to the cause.
    Mr. Hice. OK, thank you. Dr. Redfield, real quickly if you 
would, is there any way that the regulations, rules that are 
standing in the way of the FDA from getting tests here, being 
purchased, is there any way those regs can be waived in a 
National Emergency?
    Dr. Redfield. Initially, the regulations were in fact there 
and that is why we had to go through and get approval. The 
Commissioner actually gave regulatory relief so that any 
individual now can go back and----
    Mr. Hice. But you just answered a moment ago that we cannot 
purchase those tests from South Korea and you said because of 
regulatory interference. My question is, can those regulatory 
requirements be waived in a National Emergency?
    Dr. Redfield. I would have to refer that to the 
Commissioner of the FDA.
    Mr. Hice. OK, and last question real quickly and I want to 
yield to the gentleman from Tennessee. Dr. Redfield, are our 
tests better than their tests, more accurate?
    Dr. Redfield. I would say our tests are accurate. I am not 
going to compare it to theirs.
    Mr. Hice. OK. I just want to know if we are talking apples 
to apples or something else. So, far as you know, South Korean 
tests are accurate as well?
    Dr. Redfield. I would assume. I can only comment that our 
tests are accurate.
    Mr. Hice. Alright. With that, I want to yield to the 
gentleman from Tennessee.
    Mr. Green. Mr. Hice, thank you. Dr. Redfield, I was on the 
phone yesterday with the CDC and the NIH and they suggested 
that the South Korean test used only a single IG and not IGG 
and IGM. Would you explain to my colleagues here why that 
single immunoglobulin test versus ours, which is a two 
immunoglobulin test, why our test is so much better?
    Dr. Redfield. Congressman, you are referring to the test. 
Actually the tests that we are currently using and they are 
using to detect acute infection is to measure the antigen that 
is in the oral, nasal or pharyngeal space and they are actually 
using a molecular test for that. What you are referring to is 
the test that we are trying to develop to understand the full 
extent of this outbreak.
    And that is a serological test. Or they can measure it in 
oral and nasal secretions and measure certain like an IGG. CDC 
has developed two serological tests that we are evaluating 
right now so we can get an idea through surveillance, what is 
the extent of this outbreak? How many people really are 
infected? And that is being moved out now to do these extensive 
surveillance programs.
    Mr. Green. Madam Chairman, can I get one more question on 
that same line. Or do you--I can wait for someone else to 
yield. Thank you.
    Chairwoman Maloney. Let's wait for someone else. I want to 
try to keep to the five minutes because many members are here 
and they all have important questions on both sides of the 
aisle. I now recognize the gentleman from Virginia, Mr. 
Connolly. He is recognized for five minutes and I appreciate 
his help on this hearing.
    Mr. Connolly. I thank the Chair. Some of my friends on the 
other side of the aisle, including the ranking member, began 
sanctimoniously to say we don't want to politicize this issue. 
It is too important. Well, we didn't politicize the fact that 
the global health and security biodefense desk at the National 
Security Council was dismantled by this Administration two 
years ago.
    We didn't politicize the funding of public health in the 
United States at the budget that in fact made critical cuts, 
which we restored. We aren't the ones that call the alarm being 
raised about this pandemic. That is fake news. That came out of 
the President of the United States mouth and no gas lighting is 
going to hide that.
    And politicization, when the President of the United States 
finally did go down the CDC with you, Dr. Redfield, we appeared 
wearing this hat. A campaign hat in the middle of a crisis. We 
will not be lectured about politicization and all of your words 
and sanctimony will not cover up the fact that this 
Administration was not prepared for this crisis and it put 
lives at risk, American lives at risk.
    We didn't have the test we needed. We didn't have a 
diagnostics we needed. The President made patently false 
assertions, which Dr. Fauci corrected, about the development of 
the virus. In fact, he was more concerned about what was 
happening on the stock market than he seemed to be concerned 
about American public health. That is shameful and you can't 
cover that up.
    We will not be silent nor will we be intimidated by charges 
of politicization in pointing it out because lives are at 
stake. Dr. Redfield, you indicated one size does not fit all 
and I think that is true. But there is a concern that we don't 
have any kind of uniform protocols and guidance for localities 
and states.
    So, for example, Mr. Cooper's state has decided not to 
identify a specific County where a Coronavirus victim may be 
present, just a region of the state, whereas in my state we are 
being quite precise about where our victim may be identified.
    They corrected that today. But again, there is confusion. 
Do we close things? Is there a certain number that we are 
worried about? When do people get tested? How do they get 
tested? What is the guidance about going to an ER as opposed to 
seeing your physician? What if you don't have a physician? 
There is real concern here about the need for more uniformed 
guidance. Granted one size does not fit all, but that doesn't 
mean there is no guidance at all and no protocols that states 
and localities could refer to. Would you comment?
    Dr. Redfield. Thank you. A very important question. First, 
we do have very specific guidance for a variety of things that 
the CDC has published, really targeting more the business 
community, hospitals, long-term care facilities. But the point 
you raised, I think, is the most important: what guidance are 
we giving public health officials to figure out their 
mitigation strategy based on their circumstance?
    And I will so say, yesterday we did post for everyone an 
algorithm for how they can go through jurisdiction by 
jurisdiction for what to do for individuals and families at 
home, what to do for schools and childcare, what to do for 
assisted living and long-term care facilities, what to do for 
the workplace, what to do for community and faith 
organizations, what to do for the healthcare setting because I 
couldn't agree with you more that we want to give guidance.
    We put that out. We are, as we speak today, working with 
four jurisdictions to get very specific on exactly what CDC is 
recommending in those four situations so that the rest of the 
Nation can see how to begin to operationalize it.
    Mr. Connolly. And if I could just quickly ask Dr. Fauci, 
was it a mistake, Dr. Fauci do you believe, to dismantle the 
office in within the National Security Council charged with 
global health and security?
    Dr. Fauci. I wouldn't necessarily characterize it as a 
mistake. I would say we worked very well with that office. It 
would be nice if the office was still there.
    Mr. Connolly. We have a bill to solve that, a bipartisan 
bill. I thank you and I thank the Chair.
    Chairwoman Maloney. Thank you. The gentleman from 
Wisconsin, Mr. Grothman, is recognized for five minutes.
    Mr. Grothman. Thank you. I would like to--I appreciate you 
all being here. I bet I have had a chance to talk to you in 
maybe five or six different panels since this crisis broke and 
I am glad you are all so ready to come to Washington. I am 
going to talk a little bit about, I am not sure yet the public 
overall is in line with the things you are telling us.
    I think in part that is because in the past we have had 
crisis around SARS comes to mind in which we expected all sorts 
of horrible things to happen. And because maybe all these 
horrible things didn't happen, the public, or many members of 
the public, are not that alarmed yet. I want to talk a little 
bit about the numbers in China and what we expect the numbers 
to be the United States.
    The things I have here show that right now in China there 
been about 3,000 deaths. Do you guys agree that probably the 
worst is over in China or do you think that number is going to 
continue to escalate or slowly drop?
    Dr. Redfield. I think China is a great sign of 
encouragement. They had--in the last couple days, they have 
really gone down to under 50 cases per day. So, they really 
have now got control of the outbreak.
    Mr. Grothman. OK. So, in the United States, when you look 
at the trajectory of what happened in China and what happened 
in the United States based upon what over three weeks a month, 
or how far are we into this situation in the United States?
    Dr. Redfield. I think that is the critical question, that 
for a period of time this outbreak seems to go in a very 
arithmetic way and then it goes logarithmic. So, for example, 
you can just go back three weeks ago and Italy had hardly any 
infections. They had almost 1,800 infections confirmed just 
last night. So, we are fighting hard now between our 
containment strategy and as Dr. Fauci will say, the expanded 
mitigation.
    Mr. Grothman. Let's compare to something the average 
American understands and that is the common flu. Can you tell 
us every year kind of where we start and how much it grows, and 
how many new people get the flu every day?
    Dr. Fauci. Yes. I can't give you a precise number sir, but 
one of the things we are trying to emphasize that the American 
people----
    Mr. Grothman. Well, I only met five minutes. Can you tell 
us about how many people, say, get the flu every year and how 
many new people are diagnosed with the flu? I didn't hear you.
    Dr. Fauci. Yes, I am sorry. You know, we about five percent 
or so to 10 percent of the population, we have about 30,000 
deaths. It ranges from 15,000 to about 69,000 to 79,000 per 
year.
    Mr. Grothman. OK. Based upon the current trajectory, how 
many people do you think will get this new virus and how many 
people do you think will die?
    Dr. Fauci. We cannot predict.
    Mr. Grothman. I know you can't predict but there must be, 
you know, you have a graph, we have the beginning of a graph. 
We know this is going to go up. We have the experience of 
China. We have the experience of Italy. Can you can you give us 
some projections?
    Dr. Fauci. It is going to be totally dependent upon how we 
respond to it. So, I can't give you a number. If we now sit 
back complacently----
    Mr. Grothman. I am not asking to be complacent. I am asking 
for a realistic and that is what the public is looking for----
    Dr. Fauci. I can't give you a realistic number until we put 
into the factor of how we respond. If we are complacent and 
don't do really aggressive containment and mitigation, the 
number could go way up and involve many, many millions. If we 
start the contain, we could flatten it. So, there is no number 
answer to your question until we act upon it.
    Mr. Grothman. I will give you a question. Now you mentioned 
earlier today that I think one of the basketball tournaments, I 
think for the Ivy League, they have cutoff their tournament all 
together on the other. Nobody talks about--every night they 
play a like, I don't know, 8 to 10 NBA games and nobody talks 
about shutting them down. Is the NBA under-reacting or is the 
Ivy League overreacting?
    Dr. Fauci. We would recommend that there not be large 
crowds. If that means not having any people in the audience on 
the NBA plays, so be it, but as a public health official, 
anything that has large crowds is something that would give a 
risk to spread.
    Mr. Grothman. OK, I will just emphasize again. You said 
about 30,000 people die every year from the regular flu. Do we 
know the ages of the people so far who are dying of the of the 
new flu?
    Dr. Redfield. Yes, so for me for the Coronavirus right now, 
for example, in Italy the average age of death is over the age 
of 80. Most of the deaths that we have seen are over the age of 
70.
    Mr. Grothman. OK, I will yield. Maybe give Dr. Greene 
another chance to ask a question.
    Mr. Green. Thank you. Very quickly, Dr. Fauci, you took the 
Hippocratic Oath right?
    Dr. Fauci. Excuse me?
    Mr. Green. You took the Hippocratic Oath?
    Dr. Fauci. I did.
    Mr. Green. OK. Are you offended by someone suggesting that 
you might intentionally not speak out when you are confronted 
with something that could harm your patience and violate your 
Hippocratic Oath?
    Dr. Fauci. Yes, I just made that point a few moments ago. 
As I have said, I have always, not only with this 
Administration and Madam Chairperson, you said I served four 
Presidents, with all due respect to Reagan and George H.W. 
Bush, I have served six Presidents and I have never done 
anything other than tell the exact scientific evidence and made 
policy recommendations based on the science and the evidence.
    Chairwoman Maloney. OK. The gentleman from Illinois, Mr. 
Krishnamoorthi, is recognized for five minutes.
    Mr. Krishnamoorthi. Thank you, Chairwoman. Good morning and 
thank you for coming in today. Yesterday, the Governor of 
Illinois said I am very frustrated with the Federal Government. 
We have not received enough test. I want to understand why. 
Director Redfield--Director Redfield over here.
    The first Coronavirus case in the U.S. was confirmed on 
January 21. At that point CDC began developing a test kit to 
diagnose Coronavirus cases. The FDA gave CDC emergency 
authorization to manufacture and issue this test kit around 
February 4, isn't that right? Unfortunately, however, testing 
did not get underway because of the problems with the test 
kits.
    Specifically CDC's Atlanta manufacturing facility had 
quality control problems. On February 24, one month after 
Coronavirus was found in America, officials discovered that 
CDC's Atlanta facility was contaminated.
    Whether it was because of the contamination or biologic 
problems, which you had alluded to, test kits coming from that 
facility were flawed and had to be replaced, dramatically 
slowing down our response.
    Dr. Redfield, I know you are investigating the cause of the 
contamination in the Atlanta facility. Is the person who 
oversaw the Atlanta facility at the time of the contamination 
still in charge of the current manufacturing process?
    Dr. Redfield. This is currently under investigation at this 
point. And I think I am going to leave it there, sir.
    Mr. Krishnamoorthi. So, you can't give us assurance that 
the person who bungled the production process hasn't been 
removed. Recovering from that misstep cost us precious weeks 
and now month, sir. Meanwhile the virus spread and people died.
    I respectfully disagree with your earlier characterization 
that we had an aggressive response and we had an early 
diagnosis when one month after the first Coronavirus case was 
detected, we still have not shipped manufacturing and we still 
not shipped test kits to public labs.
    Now, let's currently discuss testing efforts underway in 
the U.S. and other countries. You have a copy of this chart 
before you. We talked about South Korea and the U.S. Let me 
just drill down for a second because this is very instructive.
    The U.S. and South Korea both experienced their first 
confirmed Coronavirus cases roughly within a day of each other. 
The U.S. on January 21 and South Korea on January 20. 
Interestingly, both countries developed a test to diagnose 
Coronavirus roughly around the same time. The U.S. on February 
4 and South Korea on February 7, just three days later, but 
then our testing at that point, the activities diverge 
dramatically.
    Here we have a chart that shows the testing activities of 
four countries, the U.S., South Korea, Italy, and the UK on 
three separate dates and three paths in the past three weeks. 
You see, from 0 till March 10, South Korea tested 4,000 people 
for every million persons in its population. Italy in the blue 
bar tested 1,000 people for every million people in the 
population. UK 400 for every million. Now where is the red bar 
representing the United States, Dr. Redfield?
    Dr. Redfield. I don't see it on that graph.
    Mr. Krishnamoorthi. I don't see it either but I can assure 
you that the data is there, it just doesn't show up. It doesn't 
show up. It turns out that Korea had tested 4,000 people for 
every million of its citizenry and we are at 15 people for 
every million people in this country. That is a response.
    A testing response is almost three hundred times more 
aggressive than what is here in this country. And the problem, 
Dr. Redfield, is that when we don't test as rapidly as we 
should, the virus spreads and people die. Now let's talk about 
the situation going forward. Vice President Mike Pence said on 
Monday, ``before the end of this week, another 4 million tests 
will be distributed.''
    But the real question I submit is not when the test will be 
distributed, it is when the tests will be performed on people 
so that they can know whether they have contracted Coronavirus.
    Now South Korea currently tests 15,000 people per day, 
whether it is through high throughput, low throughput, medium 
throughput, it doesn't matter. They test 15,000 people per day. 
Dr. Redfield, when are we going to be reaching 15,000 people 
per day tested in this country?
    Dr. Redfield. Well first I would say, Mr. Congressman, it 
really does depend on the clinical indication. I think one 
thing I would like to point out again. The CDC developed this 
test for the United states public health system. We did not 
develop this test for all of clinical medicine. The test for 
clinical medicine, we count on the private sector to work 
together with the FDA to bring those tests to bear. And I 
said----
    Mr. Krishnamoorthi. So, you are blaming the private sector?
    Dr. Redfield. I am not blaming.
    Mr. Krishnamoorthi. You are passing the buck to a private 
sector. Sir, because of this the virus is spreading, people are 
getting sick, people are dying. Thank you.
    Chairwoman Maloney. The gentleman yields back. The 
gentleman from Kentucky, Mr. Comer, is recognized for five 
minutes.
    Mr. Comer. Thank you, Madam Chairman, and I cannot think of 
a more important Committee hearing that would take place in 
Congress this week than the one we are having now. And I was 
very glad to see Congress come together last week in a 
bipartisan way after we have spent many months in the very 
partisan environment here with respect to the impeachment 
hearing.
    But Congress came together to pass a very important Corona 
supplemental that I think everyone would agree is making a huge 
difference in America's defense against the Coronavirus 
outbreak. But I have been very disappointed to hear some of the 
comments by my colleagues on the other side of the aisle. 
Chairwoman Maloney mentioned the political spin. Mr. Connolly 
mentioned the politicization and fake news.
    I just wanted to mention a couple of things that have been 
written and said by the press and Democrat leadership. The New 
York Times a little over two weeks ago had a headline, ``Let's 
call it Trump virus. If you are feeling awful, you know who to 
blame'' and then House Majority Whip Jim Clyburn said when 
asked if he had confidence in the Administration's response, he 
said, ``absolutely not. They are just fooling around.
    It just reminds me so much of Katrina.'' I take a bit of 
issue with the politicization of something that should be 
focused on bipartisanship and working together to save lives 
because we have a crisis. Americans are truly and rightfully 
concerned and I think that that Congress needs to work hand-in-
hand with the Administration.
    I don't believe the Administration has gotten the credit it 
deserves, especially with respect to the President's decision 
to cutoff the border, which has undoubtedly given the CDC and 
health officials time to prepare for this outbreak. I am not 
confident the last Administration would have made that decision 
for fear of political incorrectness or whatever.
    So, I think the President should get a lot of credit for 
making that decision. But I want to focus on some things that 
are important to people in Kentucky because there is a lot of 
concern, there is a lot of misinformation. So, my simple 
question would be to anyone on the panel, which are the best 
website for concerned Americans to get onto that have factual 
information and important tips on how average everyday 
Americans can prepare for this?
    Dr. Fauci. So, there are two. One is, the core one is 
cdc.gov. And within that is Coronavirus.gov. But cdc.gov will 
ultimately get you very quickly to anywhere you want to go.
    Mr. Comer. So, my next question to anyone on the paddle, in 
the era of fake news and social media, how can Americans ensure 
that the information that they are sharing on the social media 
is accurate information? Is there--do you have any advice on 
that?
    Dr. Fauci. Yes, I think for the most part, at least from my 
experience, social media can often be as detrimental as it is 
helpful. That's the reason why, sir, I think the first question 
that you asked would be, one to go to the source of that data 
CDC--and I am not CDC, but I am saying CDC is a data-driven 
organization. And if you really want the facts and the data, I 
would just go to cdc.gov.
    Mr. Comer. We will make sure. Our office, I am sure. Just 
about every office here will start sharing that information. I 
want to switch gears in my last minute.
    Represent, along with Congressman Green, Fort Campbell 
Military Base, Fort Campbell, Kentucky. Kentucky, Tennessee, 
but can you tell us what is being done to ensure that there is 
not an outbreak, first of all, on our Military bases to protect 
our troops? Second, what our Military is doing to be able to be 
in a position to help fight this if this is a mass outbreak?
    Dr. Rauch. I will I can take that one. Thank you for the 
question. So, we have put out a series of for self-protection 
guidance that is aligned to the CDC recommendations and we have 
tailored those, that guidance for self-protection for Military 
Commanders, and particularly for Installation Commanders.
    Installation Commanders and Military Commanders have a lot 
of latitude between right and left limits within our guidance 
that they can command and protect their Military population. 
Now, what we are also doing is working with the interagency 
efforts to develop vaccines and also to develop antiviral 
treatments.
    And we are working with the interagency to develop what we 
call expeditionary field diagnostic kits because we want kits 
that we can push far forward. We have missions all over the 
world. We need to get our medical capability distributed.
    Mr. Comer. Well, thank you and hopefully Congress can work 
with you all in a bipartisan way, we can together and help do 
everything we can to protect American lives. With that, Madam 
Chair, I yield back.
    Chairwoman Maloney. The gentleman from Maryland, Mr. 
Raskin, is recognized for five minutes.
    Mr. Raskin. Thank you. Dr. Fauci, we have got two enemies 
in this crisis, one is the virus and one is he misinformation 
about the virus. And I want to quickly clear up a few things 
that have been said over the course of this process. One was by 
the President in early February when he said it looks like by 
April, you know, in theory when it gets a little warmer, it 
miraculously goes away. Is there any scientific reason to 
believe that?
    Dr. Fauci. The basis for any surmising that that might 
happen is based on what we see every year with influenza, which 
actually as you get to March and April and May, it actually 
goes way down, and other non-Novel Coronavirus, but common cold 
Coronaviruses often do that.
    So, for someone to at least consider that that might happen 
is reasonable, but underline but, we do not know what this 
virus is going to do. We would hope that as we get to warmer 
weather it would go down, but we can't proceed under that 
assumption. We have got to assume that it is going to get worse 
and worse and worse.
    Mr. Raskin. OK, the President predicted that there could be 
a vaccine in a few months. I think you contradicted that today 
and I think you contradicted that at that time. I just want you 
to be very clear. Is there any chance we will have a vaccine in 
a few months?
    Dr. Fauci. No, I made myself clear in my statement.
    Mr. Raskin. OK. Dr. Redfield, the first case of community 
spread of Coronavirus took place on February 26. That is 
infection of someone who did not have a clear travel history to 
China or direct contact with someone who did. Why wasn't the 
decision made on February 26 to expand your testing criteria 
for anyone displaying Corona-like symptoms at that point 
instead of waiting until March 4 to broaden the criteria?
    Dr. Redfield. Well, that is a good question, Congressman. I 
mean we always left the discretion to do testing to the local 
public health groups. If you look, we always had that 
discretion. We never refused testing from anybody but we did 
give guidance, as you point out, originally to do testing for 
individuals that presented with certain clinical scenarios 
secondary to travel to China.
    Those two cases in California and several others obviously 
led us to reconsider those and make it very clear that we 
wanted upfront to tell clinicians if they suspect it and if the 
Health Department suspected, they should send that sample to 
the Health Department or us at CDC.
    Mr. Raskin. OK, we have been hearing stories about people 
who have had very compelling reasons to get tested but were not 
able to. I will give you one example. A nurse in California was 
quarantined after treating a patient who had Coronavirus and 
then showed symptoms of the disease herself.
    On March 5, the day after you brought in the testing 
criteria, she put out a statement about her situation, and she 
said, ``the public County Officer called me and verified my 
symptoms and agreed with testing but the national CDC would not 
initiate testing.
    They said they would not test me because if I were wearing 
the recommended protective equipment, then I wouldn't have had 
the Coronavirus. Are you familiar with this case?
    Dr. Redfield. No, and I would think that this is a 
misunderstanding if it did occur.
    Mr. Raskin. OK. So, what is the standing criteria, the 
existing criteria for testing now so we have no confusion about 
it?
    Dr. Redfield. Again, it is the--if a clinical physician, a 
physician, a nurse practitioner, a healthcare provider feels a 
test is indicated then we----
    Mr. Raskin. Based on what?
    Dr. Redfield. Based on their clinical assessment.
    Mr. Raskin. And that is based on the--does it require that 
the person have to have had contact with someone who had been 
on a cruise or had been to China?
    Dr. Redfield. No. This is their clinical assessment. We are 
not going to judge the clinical assessment. We also say, if it 
is the clinical assessment of the--if it is the assessment of 
the public Health Department, those individuals. And again, 
these are decisions.
    What happens is in the time when testing was limited to 
Health Departments, the local Health Department makes that 
decision and then they--but they have followed CDC guidance. 
Now if we made it very clear, it is up to the individual 
healthcare provider and the individual public health to make 
that decision.
    Mr. Raskin. OK. Could you make a public service 
announcement right now for people who are asking the question 
of whether or not they should be tested? I hear from 
constituents who are having flu-like symptoms. They want to 
know what should they do? What should they do?
    Dr. Redfield. Well, as Dr. Fauci said, the first thing I 
would do is to tell them to contact their healthcare provider 
or their emergency room and tell them they are concerned they 
may have Coronavirus infection and then follow their 
instructions to where to get the test. Alright, and then 
proceed with getting the appropriate clinical evaluation.
    Mr. Raskin. OK, so they should call someone before they go 
in?
    Dr. Redfield. Well, we would like to do that because if you 
really think you are infected, we are trying to avoid someone 
to walk into a 200-person, 100-person emergency room. First, 
just a call in advance and then they will arrange exactly how 
they are going to get to test, how they are going to see the 
patient. They are going to be prepared when that patient comes 
to the emergency room. They are going to be able to isolate 
them, get them tested, get them properly evaluated.
    Mr. Raskin. OK. Thank you for your work on behalf of the 
American people. I yield back, Madam Chair.
    Chairwoman Maloney. Thank you. The gentleman from Texas, 
Mr. Cloud, is recognized for five minutes.
    Mr. Cloud. Thank you, Chairwoman. Thank you all for being 
here today. Appreciate your work on this. Dr. Redfield, I 
appreciated you talking about the ever changing dynamics of the 
situation, especially in the sense that scientists even every 
day are learning more and more on how to deal with this and how 
to address it.
    It has been difficult, of course, to get information out to 
the public, especially in a hyper politicized environment. I 
like to spend some time trying to clear the record on that as 
we try to find the proper balance between creating a proactive, 
positive response to real threats as opposed to instigating 
overreaction in the public and finding a healthy balance.
    Dr. Fauci, can you, by way of comparison, briefly explain 
how does COVID-19 compare to other previous health situations, 
SARS, H1N1, things like that.
    Dr. Fauci. Sure, sir. Thank you for the question. Well SARS 
was also a Coronavirus in 2002. It infected 8,000 people and it 
killed about 775. It had a mortality of about 9 to 10 percent. 
So, that is only 8,000 people in about a year. In the two-and-
a-half months that we have had this Coronavirus, as you know, 
we now have multiple multiples of that.
    So, it clearly is not as lethal, and I will get to the 
lethality in a moment, but it certainly spreads better. 
Probably for the practical understanding of the American 
people, the seasonal flu that we deal with every year has a 
mortality of 0.1 percent. The stated mortality over all of this 
when you look at all the data including China is about three 
percent. It first started off as two and now three.
    I think if you count all the cases of minimally symptomatic 
or asymptomatic infection, that probably brings the mortality 
rate down to somewhere around one percent, which means it is 10 
times more lethal than the seasonal flu. I think that is 
something that people can get their arms around and understand.
    Mr. Cloud. But less lethal than H1NI or SARS?
    Dr. Fauci. Absolutely not. H1N1 is even--the 2009 pandemic 
of H1N1 was even less lethal than the regular seasonal flu. It 
was a pandemic----
    Mr. Cloud. I am trying to help the American people know 
where to appropriately set their gauge.
    Dr. Fauci. I think the gauge is that this is a really 
serious problem that we have to take seriously. I mean people 
always say, well the flu, you know, the flu does this, the does 
that. The flu has immortality of 0.1 percent. This has 
mortality of ten times that, and that is the reason why I want 
to emphasize, we have to stay ahead of the game in preventing 
this.
    Mr. Cloud. OK. Could we speak to the supply chain for a 
second, Dr. Kadlec. We are telling people to wash their hands, 
sanitation, all that kind of stuff. A lot of this stuff comes 
from China. They are going to the stores seeing these dry up. 
What are we doing from the, I guess, FDA standpoint to ensure 
supply chains, that we have all these--everything we need.
    Dr. Kadlec. Sir, you know, I know there has been a run on 
Purell but I think water works just as well just in terms of 
that case, but it does require people to frequently wash their 
hands and maintain good hygiene, cover the cough, covers 
sneeze, don't touch your face, and again, ensure that you 
continue to wash your hands.
    Mr. Cloud. In my understanding in the legislation we just 
passed last week too, you know, face mask for health 
professionals. Of course, not for every citizen walking around 
but for health professionals. Then we have U.S. supplier that 
could provide them but we, House leadership didn't put the 
legal framework in it necessarily. Is there anything the FDA is 
doing to allow U.S. based companies to participate better?
    Dr. Kadlec. So, I think one thing the FDA issued was 
emergency use authorization about expanding the use of 
particular masks, N95 respirators that could be used. There are 
two types, one used by industry, one used by the healthcare 
industry, and basically making that available for increased so 
the numbers will be increased.
    There is a high demand for masks, particularly in the 
healthcare setting. Depending on what model you use, you may 
need up to $3.5 billion. That is a high number. That is a 
model. All models are wrong but some are useful, and that 
number could be as low as $600 million. And so what we are 
doing now is we are trying to increase the amount of masks that 
are available both N95 respirators and surgical masks which 
could be used in low-risk settings by healthcare workers.
    And in that way, we have issued a request for proposal for 
500 million masks.
    Mr. Cloud. OK, I have time for one more question so----
    Dr. Kadlec. Yes, sir, sorry.
    Mr. Cloud. Regarding testing Dr. Fauci, we have had people 
calling 911 showing no symptoms, asking for an ambulance to 
take them to a hospital to be tested. So, who should be tested? 
At what point should they be tested? At what point are the test 
actually helpful? What about false negatives, those kind of 
questions. Who should we really be concerned about?
    Dr. Fauci. OK, so very briefly as Dr. Redfield has 
responded multiple times on this, there are really two buckets, 
if you want to call it. If you have someone who has a reason to 
believe that they are infected, either that they have symptoms 
or they have come into contact with someone who is either 
travel-related or who is in fact documented to have been 
infected, are exposed.
    That is something that if you go to a physician, you get a 
test, and you find that that individual is infected. The other 
that was discussed a fair amount over the last several minutes 
is this surveillance type where you are not looking to see if 
anybody has been exposed, but you want to find what the 
penetrance of this particular infection is.
    That is a different thing than the physician-patient 
relationship. That is trying to get a feel for what is out 
there and that is what the CDC is doing now in six sentinel 
cities.
    They will expand that throughout the country so that we 
will be able to, hopefully very soon, to get an idea, 
forgetting the people think they might be infected, who 
actually is infected.
    Chairwoman Maloney. The time has expired. The gentleman 
from California is recognized for five minutes.
    Mr. Rouda. Thank you, Madam Chair. Like all of the members 
up here, we are getting constant communication from our 
constituents wanting more information and I applaud all of you 
for being forthright with the American public. That is exactly 
what we need. In times like this, communication is so 
important.
    And if you are going to err on one side or the other, over-
communication is clearly more important than under-
communication. Dr. Kadlec, I had the fortunate opportunity to 
be with you earlier this week and see firsthand the work that 
you are doing to help address this issue as well as your peers.
    I want to talk about one of the slides you shared with me 
and it was a bell curve that showed what would happen across 
United States as far as the spread of this disease if 
mitigation efforts were not taken by the American public and 
your agencies versus mitigation efforts to basically flatten 
that bell curve.
    And I think the primary purpose of that is so that our 
healthcare facilities and physicians, as well as the supplies, 
are not for lack of a better term overrun by a steep bell 
curve. Am I correct in making that statement?
    Dr. Kadlec. Yes, sir.
    Mr. Rouda. And I think another way to say it too is not a 
question of if, it is a question of when the virus continues to 
spread across the United States, but we want to pace it out as 
long as possible. Is that a correct statement as well?
    Dr. Kadlec. Yes, sir.
    Mr. Rouda. Thank you. One of the issues in helping to 
address this is the fact that we do not have enough test kits. 
We know that many individuals, as my fellow member to the right 
of me, Mr. Raskin, pointed out, there are individuals who have 
requested test kits and have not been able to access.
    My understanding is as late as last Saturday, ground zero 
in King County, Washington, the healthcare professionals from 
that facility still did not have access to test kits. Mr. 
Redfield, do you know if that is true or not?
    Dr. Redfield. We have provided test kits to the Health 
Department. The University of Washington has developed their 
own tests----
    Mr. Rouda. Were those test kits available last Friday?
    Dr. Redfield. Yes, sir.
    Mr. Rouda. Thank you. And without test kits, is it possible 
that those who have been susceptible to influenza might have 
been miscategorized as to what they actually had, that it is 
quite possible that they actually had COVID-19?
    Dr. Redfield. The standard practice is the first thing you 
do is test for influenza. So, if they had influenza, they would 
be positive for----
    Mr. Rouda. But only if they were tested. But if they 
weren't tested, we don't know what they have?
    Dr. Redfield. Correct.
    Mr. Rouda. OK. And if somebody dies from influenza, are we 
doing post-mortem testing to see whether it was influenza or 
whether it was COVID-19?
    Dr. Redfield. There is a surveillance system of death from 
pneumonia that the CDC has. It is now in every city, every 
state, every hospital.
    Mr. Rouda. So, we could have people in the United States 
dying for what appears to be influenza when in fact it could be 
the Coronavirus or COVID-19?
    Dr. Redfield. Some cases have been actually diagnosed that 
way in the United States today.
    Mr. Rouda. Thank you. I want to turn a little bit to the to 
the CDC website because I really appreciate the information 
that you are putting out and it is so important to the American 
public, but I also want to make sure that they fully understand 
it. On the CDC website, there is a published a guide called, 
``Framework for mitigation actions for protect communities from 
COVID-19.''
    In that graph, it provides three levels of transmission. 
None, in other words you are in a community where there is no 
reports of any cases whatsoever. The second area is minimal to 
moderate. And the third is substantial. Dr. Redfield, how many 
cases of Coronavirus are considered to be, ``minimal to 
moderate''?
    Dr. Redfield. Right now when we see basically transmission 
cases, particularly if they are not linked, we are looking at 
cases in the 25 to 50 range to see that groups begin to move 
into the moderate range, sir.
    Mr. Rouda. OK. Thank you. That is helpful. I would suggest 
that the CDC put that on their website so that the average 
American can read it and understand exactly the precautions 
they should take. So, then substantial, I would assume, is when 
you have 50 cases or more in your community, you can consider 
it substantial?
    Dr. Redfield. Yes, sir.
    Mr. Rouda. OK. Thank you. And I would go back to Dr. Fauci, 
you talked about this is serious. We are seeing activities 
across the Nation, school closing, sporting events being 
discussed about having them held in other places, major events 
being canceled or rescheduled.
    This would suggest this is a really serious issue and I 
share the thoughts of the member from Wisconsin that I think we 
are concerned that we are not getting the full understanding or 
modeling that has taken place that would suggest the true 
impact of this virus across the United States as well as 
potential models for deaths.
    Can you elaborate a little bit--and I get that there is no 
perfect model, but can you be helpful in helping us understand 
what we are really looking at here?
    Dr. Fauci. Yes, if you look at the curves of outbreaks, 
historically, that is similar to this, the curve looks like 
this and then it goes up exponentially, and that is the reason 
why it depends on how you respond now. So, if we wait till we 
have many, many more cases, we will be multiple weeks behind.
    You know, I use the analogy at the press conference 
yesterday and I will use it today. It is the old metaphor, the 
Wayne Gretzky approach. You know, you skate not to where the 
puck is but to where the puck is going to be. If we don't do 
very serious mitigation now then what is going to happen is 
that we are going to be weeks behind and the horse is going to 
be out of the barn.
    And that is the reason why we have been saying, even in 
areas of the country where there are no or few cases, we have 
got to change our behavior. We have to essentially assume that 
we are going to get hit. And that is why we talk about making 
mitigation and containment in a much more vigorous way. People 
ask, why would you want to make any mitigation, we don't have 
any cases. That is when you do it because we want this curve to 
be this, and it is not going to do that unless we act now.
    Mr. Rouda. Thank you, doctor. Madam Chair, I yield back.
    Chairwoman Maloney. Thank you. Thank you so much. The 
gentleman from Ohio, Mr. Gibbs, is recognized for five minutes.
    Mr. Gibbs. Thank you, Madam Chair, and thank you all for 
the work you are doing. The huge challenge and I know the 
stress you must be under and could never thank you enough 
because I think CDC and all our agencies are doing the best 
they can in this unprecedented circumstance. I also was glad to 
see Governor Newsom, California come out and say some good 
things the Administration is doing and the help, and I think 
the Government in Washington should do the same.
    You know, just talking about politicization which shouldn't 
happen. We should be together on this. But one thing that 
really astounded me was all the talking heads and some Members 
of Congress criticizing Vice President Mike Pence take the lead 
on this, head this up because he is not a medical professional.
    I would think when I look at this that a person at that 
that office, that level, that office that helps bring the 
agencies together, whether maybe help clean out some of the red 
tape and bureaucracy, would you concur that that has been 
helpful to have that level--our top level our Government 
involved at that level for your working relationship when you 
are especially working between agencies?
    Dr. Fauci. Yes, sir.
    Dr. Redfield. Absolutely.
    Mr. Gibbs. I just make that point because I hear that 
criticism and I think that they are either being political or 
they don't know what the heck they are talking about. Probably 
a little of both. I also think it is amazing, and I want to 
praise the CDC has done to develop a test in one week. Is that 
unprecedented to develop a test----
    Dr. Redfield. I am going to have my friend, Dr. Fauci, 
answer.
    Dr. Fauci. I mean, obviously the technologies of today, 
being able to develop a test as quickly as that, the same way 
as we were able to use the sequence to get a vaccine started at 
least in the trial----
    Mr. Gibbs. And I fully understand the vaccine because you 
have got all the testing of a good safety, efficacy, and all 
that, but we are relatively close to an anti-viral----
    Dr. Fauci. You know, you say relatively close but we don't 
know if it works so I don't want to promise anything. We are 
testing them. If they are effective, they will be distributed 
but you don't want to do that unless you know they are 
effective.
    Mr. Gibbs. I do want to talk a little bit about the 
timeline. You know, it broke in China and then South Korea, 
Japan, Italy, and the United States, and you know elsewhere.
    As you say, it has really mushroomed. Seems to me when the 
next four weeks for us are really critical because it is--can 
we kind of maybe think we are getting information on China. I 
know sometimes it is not reliable. But also, we are seeing it 
happen in South Korea and Japan. And maybe they peaked a little 
bit? Maybe they are on the better side that curved now?
    Dr. Redfield. I think, you know, I think you are right 
Congressman. Clearly China has got controlled of the outbreak. 
They had 20 cases in the last 24 hours. Where our real threat 
right now is Europe. That is where the cases are coming in for. 
So, in a way if you want to just be blunt, Europe is the new 
China.
    Mr. Gibbs. OK. I praise you, Dr. Fauci, talking about doing 
as much mitigation as we can. It is critical but would you 
concur that my assessment, the next the rest of this month and 
next four weeks, is the really critical time for us?
    Dr. Fauci. It is critical, yes. And it is critical because 
we must be much more serious as a country about what we might 
expect. We cannot look at and say, well, they are only a couple 
of cases here, that is good, because a couple of cases today 
are going to be many, many cases tomorrow.
    Dr. Redfield. We would like all Americans to take a good 
look at that mitigation strategy, as Tony said. We have zero, 
but they need to be fully engaged in that mitigation strategy 
as well as those with moderate and more severe. This is a time 
for everyone to get engaged. This is not just a response for 
the Government and the public health system, it is a response 
for all of Americans.
    Mr. Gibbs. I understand that. Another thing that is not 
really being reported because it doesn't--it is not as you 
know, raises the ratings, everybody is talking about it, the 
number of cases and the number fatalities, but also I have seen 
the reports worldwide. We have better than 50 percent recovery 
rates, is that right?
    Dr. Redfield. Right now we would say it's probably about 85 
percent, sir.
    Mr. Gibbs. No, 85 percent of people affected are----
    Dr. Redfield. Are recovering. 80 to 85--about 15 to 20 
percent----
    Mr. Gibbs. OK. I was just looking at the John Hopkins real 
time chart and there are like 120,000 confirmed cases and about 
60,000 or something like that----
    Dr. Fauci. Any times when you look at the chart it is about 
half. But at the end of the day, if you look at historically, 
for example the experience we have had with China, about 80 
percent of them have the disease that makes people sick but 
they ultimately recover without substantial medical 
intervention. It is 15 to 20 percent that have the serious 
disease and high mortality.
    Mr. Gibbs. And the bulk of them have been people with 
underlying health conditions and over 70, right?
    Dr. Fauci. The elderly as well as people with underlying 
conditions like heart disease, lung disease.
    Mr. Gibbs. I am out of time. I just want to say I think we 
need to do what we need to do, be vigilant, but we also need to 
be responsible and not lose our heads on this because I think 
we are going to get over this with time, with the great work 
you are doing. Thank you. I yield back.
    Chairwoman Maloney. Thank you. The gentleman from 
California, Mr. Khanna, is recognized for five minutes.
    Mr. Khanna. Thank you, Madam Chair. First, let me thank 
you, Dr. Fauci. I have known you, worked with you, and I have 
complete confidence in your leadership and appreciate your 
service.
    And Dr. Redfield, I think it is important to realize that 
you have served our country in the Army, you serve this 
Nation--we need to be focused not on personalizing this but 
figuring out what we can do to solve the issue. Now, one of the 
things that I think they should teach us as a country with all 
the anti-Government rhetoric, why do we need Government, 
Government is the problem.
    How about we consider how inadequately we have been funding 
Government and public health. The CDC budget is $11 billion, 
1.5 percent of our defense budget, $738 billion. Dr. Redfield, 
do you think our country would have been safer if let's say we 
had twice the CDC budget, if we had put that three percent of 
our national defense budget in our capacity?
    Dr. Redfield. Thank you, Congressman. I think it is 
important to realize that for, you know, decades we have 
underinvested in the public health infrastructure of this 
Nation. As many of you know, CDC's funding that we get from 
Congress, about 70 percent of it goes out to local and state, 
territorial and tribal Health Departments. They are the 
backbone of our health system.
    And if anything, I think you can look, I would rather see 
during my legacy to help over prepare our Nation's public 
health system with what I call the core capabilities of data 
modernization and predictive analysis, laboratory capacity at 
the local, public health labs, making sure we have the human 
personnel and the public health communities, the rapid response 
fund that we are very appreciative that Congress gave us, and 
build a global health security platform for the 2030, 2050----
    Mr. Khanna. And Dr. Redfield, while you have the country's 
attention, how much would that cost? Because right now we are 
spending--I think most people realize this is a national 
security issue and we are putting 1.5 percent into the CDC of 
the defense budget.
    The NIH budget is $41 billion which is less than five 
percent of National Security. I mean, why isn't there 
bipartisan call to double these budgets, triple these budgets. 
I mean, what would you ask the American people and Congress to 
prepare?
    Dr. Redfield. I appreciate the opportunity Congressman and 
I would have to get the back to you with an exact estimate of 
all that.
    Mr. Khanna. Dr. Fauci, do you have a view----
    Dr. Fauci. Yes, I mean we have been well funded at the NIH 
but I think that we need to continue to have a consistent well 
funding. What happens is that there is inconsistency at times 
but luckily over the last four or five years the Congress has 
been quite generous with us.
    Mr. Khanna. One question I do have is the WHO had tests and 
some of the other countries use these tests. Why shouldn't we 
be using these tests?
    Dr. Redfield. I think it is important to understand about 
the key for proving test in this country from other countries. 
They can go ahead and apply through the FDA and get 
registration and be dispersed.
    Obviously, one of the reasons we developed the test that we 
developed was to try to make it as available as rapidly to the 
American public health. So, I would defer that question to the 
Commissioner at what the exact hoops are for the foreign 
companies to get their test approved.
    Mr. Khanna. Do you think we need to look at streamlining 
these types of crisis approval for things like WHO testing, 
which 60 other countries are using or there are stories in the 
New York Times about how leading scientists have come up with 
tests in Seattle that weren't approved. I mean is there has got 
to be a better way of getting these tests out there.
    Dr. Redfield. I will say that when this was recognized when 
I was practicing in the Army, I could develop a test and then 
use it in clinical medicine. Somehow between then and now there 
was not regulatory discretion for us to do laboratory developed 
tests. The Commissioner did though, I think it was on February 
29, issue regulatory discretion. So, the University of 
Washington or say Columbia could actually develop their own 
tests and actually use it, rather than have to file what we 
call an emergency use authorization. They could start using 
their test and file that 15 days later.
    Mr. Khanna. Let me ask one final question. I genuinely 
believe that we have the most brilliant scientists and 
entrepreneurs in the world in the United States, and the 
question is if we want to come up with an antiviral treatment, 
vaccine treatment, what it is--and I want both Dr. Fauci and 
Dr. Redfield to answer. What is it more that you need from 
Congress? Because no one cares about us lecturing people. No 
one cares about what we have to do. What are the resources that 
you need so the scientists and the technology and the 
entrepreneurs can solve this?
    Dr. Fauci. From the NIH standpoint, it is the consistency 
of funding which thankfully you have been able to do. You go 
back to 1998 to 2003, you doubled the NIH budget. Then we went 
through a very, very flat long period of time which actually 
was very difficult because it discouraged young investigators 
from getting involved. For the last few years, we have had a 
good consistent increase. What you can do is to continue to 
give the kind of investment in medical research that is 
consistent and predictable.
    Dr. Redfield. I would say first and foremost, the most 
important thing that you already have done is the establishment 
of the rapid response fund. You know, prior to that, we would 
have to go to our foundation, and ask them to raise money for 
us to respond to an emergency. The more flexibility you can do, 
enabling CDC to have a rapid infectious disease response fund, 
I think is really one of the most important tools we have right 
now. And you all have started to do that already and we are 
very thankful.
    Chairwoman Maloney. So, thank you for that important point. 
The gentleman's time has expired, and let me intervene here. I 
have been told that our witnesses need to leave now. I don't 
know what is going on at the White House. The White House is 
telling reporters that this meeting is not an emergency. They 
are saying it was scheduled yesterday. However, that is not 
what your staff has told us.
    Your staff said the White House did not tell them about 
this sudden meeting until this morning, right before our 
hearing. There seems to be a great deal of confusion and a lack 
of coordination at the White House. I hope this does not 
reflect on the broader response to this crisis. We have asked 
your staff if you can come back and resume this hearing at 2 
p.m. after your meeting at the White House. They have not 
responded to our request.
    And I am not going to adjourn this hearing. I am going to 
recess it. We haven't even gotten through half of our members, 
either side--excuse me. I will finish in a second. You haven't 
even gotten through half of our members. We will continue to 
work with your staff to have you back to finish the hearing and 
answer the rest of the questions from our members.
    Finally, let me close with this, this Committee sent you a 
request for information a week ago. We asked for basic 
information about the crisis and your plans for the response, 
but you have not provided us with anything. We understand that 
you are incredibly busy but a lot of this information should be 
at your fingertips.
    We need this information because we keep getting sometimes 
misinformation from the White House and we have an independent 
obligation to the American people. So, I have one last 
question, will you commit to producing the information we 
requested at least regarding testing, Dr. Fauci?
    Dr. Fauci. Madam Chairperson, I am not sure what 
information referring to that we did not provide. Are you 
talking about the National Institute of Allergy and Infectious 
Diseases?
    Chairwoman Maloney. We sent a letter with all the 
Subcommittee chairs and myself requesting information to every 
Department, yours, the CDC, FDA.
    Dr. Fauci. I will check this immediately after to find out 
what the issue is.
    Chairwoman Maloney. Thank you. Thank you very much.
    Mr. Roy. Madam Chairman, may I interject you for one 
second. I have got timely issue. I know you all need to go down 
to the White House----
    Ms. Schultz. Madam Chair, I do as well. I have a very 
specific District related question. There are people in 
danger----
    Mr. Roy. Madam Chair, I just--I have got the floor here----
    Chairwoman Maloney. Please, please, we will yield to the 
ranking member and then to the gentlelady from Florida for the 
last question--regular order. We are going to go to a recess 
after I recognize the ranking member for his closing statement.
    Mr. Roy. Well, I appreciate the Chairwoman. We all 
recognize the importance of what is going on here. And I think 
it is important to have level heads about what is happening and 
that we want to make sure that you guys can go do your work but 
it is important that you come back. It is extremely important 
that you come back. We do have urgent questions.
    I believe that the gentlelady from Florida has extreme 
concerns of urgency to the people that she represents. I can 
tell you that I do representing San Antonio. I sent a letter, 
Dr. Rauch, to the Department of Defense two and a half weeks 
ago and I have not received a response because I am troubled 
about the lack of response from the Department of Defense in 
helping us deal with the fact that we have people who have 
tested positive who are being held at an Air Force base in San 
Antonio and we don't have a plan on what to do with them.
    I want answers to these questions and I want to be able to 
have you all respond to those questions when we come back. And 
I hope that will be this afternoon regardless of whatever is 
needs to be discussed at the other end of Pennsylvania Avenue.
    I think there are very serious concerns that some of us 
want to have addressed and I think that right now we have got 
380 evacuees heading to a base in San Antonio yet I have got an 
email right here from city council mayor and leadership in San 
Antonio saying they don't have adequate plans on what to do 
with those who have tested positive.
    So, I expect you all to come back down here today in 
accordance with what the Chair is asking so that we can have 
those questions answered. Thank you.
    Chairwoman Maloney. Well, responding to the ranking member, 
will you all be back at 2 p.m. today?
    Dr. Fauci. We are going to have to see--the reason I am 
saying that, Madame Chairperson, is that we have a Task Force 
meeting at--what time is it? We have a task force meeting at 
3:30 p.m. in the White House. I will get myself down here at 2 
p.m. if you would like me down here, but I would have to be at 
the Task Force meeting at 3:30 p.m. in the White House. I don't 
know how we are going to work that.
    Chairwoman Maloney. We will continue discussion. We will 
stand at recess so that you can get to this meeting. We are in 
recess. Thank you.
    [Recess.]
    Chairwoman Maloney. The Committee will come to order. I 
want to thank some of our witnesses, Dr. Kadlec, Dr. Rauch, and 
Mr. Currie for coming back. We are deeply appreciative for your 
time and your service. I have an update on our scheduling.
    Before I do that, I want to point out two critical 
developments just since we recessed this morning. First, the 
World Health Organization has now officially declared the 
Coronavirus outbreak to be a pandemic.
    Second, the number of confirmed cases has skyrocketed to 
938. Just four days ago, it was 164. That is more than fivefold 
increase just this week. In terms of resuming our hearing 
today, we have been informed that Dr. Fauci and Dr. Redfield 
have been unavoidably detained at the White House. We don't 
know what is going on, but they cannot come back.
    As a result, we will resume this hearing tomorrow, 
Thursday, at 11 a.m. We have been informed by the agencies they 
will all be here and we hope to have enough time to finish all 
of our members' questioning. Therefore, the Committee will 
stand in recess until 11 a.m. tomorrow.
    [Whereupon, at 2:43 p.m., the committee recessed, to 
reconvene at 11 a.m., Thursday, March 12, 2020.]


                        CORONAVIRUS PREPAREDNESS
                            AND RESPONSE
                                (Day 2)

                              ----------                              


                        Thursday, March 12, 2020

                   House of Representatives
                  Committee on Oversight and Reform
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:05 a.m., in 
room 2154, Rayburn House Office Building, Hon. Carolyn B. 
Maloney
    [chairwoman of the committee] presiding.
    Present: Representatives Maloney, Norton, Clay, Wasserman 
Schultz, Sarbanes, Welch, Kelly, Plaskett, Pressley, Gomez, 
Tlaib, Porter, Haaland, Jordan, Higgins, Norman, Roy, Green, 
and Keller.
    Chairwoman Maloney. The committee will come to order. I 
thank all of our witnesses for returning this morning. We 
appreciate the recognition of our interest and our oversight 
responsibilities.
    This is a crisis that is evolving quickly. Since our 
hearing yesterday, the World Health Organization declared the 
coronavirus outbreak a global pandemic.
    CDC has now reported that we have almost 1,000 confirmed 
cases. That is up from 100 reported cases a week ago, a 900 
percent increase.
    Americans are worried. They are scared. It is essential 
that we are able to hear directly from the health officials 
leading this effort with just the facts.
    I am going to go to the Republican side first, which is 
where we left off. Before I do that, without objection, the 
following three letters we sent on March 3 to HHS and CDC 
requesting basic information including about testing are 
entered into the record.
    Chairwoman Maloney. We have not gotten any response to 
those letters and, with that, I recognize Mr. Higgins.
    Mr. Higgins. Thank you, Madam Chair.
    Dr. Fauci, gentlemen, thank you for returning today and let 
me ask Dr. Fauci, do you lead the Executives Task Force 
regarding our Nation's response to coronavirus?
    Dr. Fauci. No, I don't, sir.
    Mr. Higgins. Your status is what on the task force?
    Dr. Fauci. No, I don't--I don't lead the task force. The 
task force is led by the vice president of the United States--
--
    Mr. Higgins. Yes. Understood. But you are the lead 
scientist is my question.
    Dr. Fauci. We have several scientists. We have myself. Dr. 
Redfield. We have Dr. Burkes. We have Dr. Kadlec. We have 
several scientists.
    Mr. Higgins. Right. The scientists I have spoken with in 
committee see you as the lead man and I believe most of America 
does, and we greatly respect you and these gentlemen being here 
today.
    However, let me clarify for America watching that according 
to the rules of this committee, members have the opportunity to 
submit our questions in writing, and given the nature of this 
challenge and the president's announcements of last night, with 
all due respect, Madam Chair, I believe that this hearing 
should have been canceled or postponed and these gentlemen 
should be able to go and do their work. There is a time--there 
is a time in battle when you need your front-line men on the 
front line, not in the rear with the gear.
    And these gentlemen showed us great respect to be here 
today, and the oversight role is incredibly important. But you 
gentleman have work to do. I will be submitting my questions in 
writing and my office will publish those questions and your 
answers in a press release at a later date.
    Madam Chair, I urge you to consider adjourning this hearing 
and I yield the balance of my time to the ranking member.
    Mr. Jordan. I thank the gentleman for yielding.
    I would now yield to the--if it is appropriate the chair 
would yield to the gentleman from Tennessee, Mr. Green.
    Mr. Green. Thank you, Mr. Ranking Member and Mr. Higgins.
    My first question is for Mr. Kadlec. I want to talk a 
little bit about PPE, if I could, and a concern about liability 
and the liability protections that might be very important for, 
you know, the fact that this is such a catastrophic event and 
we are--we are pushing to the extreme our stocks on PPE.
    If you could comment about that and, specifically, the 
liability issues.
    Dr. Kadlec. Yes, sir. You are correct that there is a great 
demand for personal protective equipment, particularly 
respirators--N95 respirators. There--we have a limited supply 
in our Strategic National Stockpile.
    Annually, about 350 million respirators are used. Only a 
small percentage of that is used by the health care industry, 
about 35 million, and we believe that the demand for that could 
be several hundred million to up to a billion in a six-month 
period. So, it is a very high demand item.
    There has been a strategy to basically, and CDC had 
provided guidance on reuse--how can we use them longer. We have 
gone to the manufacturers in how they can surge more and many 
of them are doing that, and domestically, even though some of 
their sources for product--finished product--is from overseas 
like China.
    And then the third thing is is what can we do to basically 
use masks that haven't been used for the medical area. 
Nonmedical N95s could be used in that fashion, and FDA is 
basically certified through an emergency use authorization. The 
N95 respirators used in manufacturing and in mining and in 
construction could be used in health care settings.
    They are very similar but not the same, but could be used 
that way. And the only thing that is keeping a lot of 
manufacturers from selling those masks to the broader health 
care population is because of liability provisions or lack of 
liability protections.
    There is the Public Readiness Emergency Preparedness Act 
that was passed in 2005 that basically indemnifies 
manufacturers, distributors, and users of these masks or, 
pardon me, of users of products that are defined as a device or 
as a covered countermeasure.
    When we--so I happened to be on the staff that did that 
legislation in 2005. We did not consider a situation like this 
today. We thought about vaccines. We thought about 
therapeutics.
    We never thought about respirators of being our first and 
only line of defense for health care workers. So, we think that 
is a very important capacity and capability is to include 
language or modify the PREP Act to include language to include 
respiratory protective devices for that purpose and that is a 
significant critical pass now item.
    Mr. Green. Thank you very much for that--for that answer.
    Dr. Redfield, I had a bunch of constituents ask me after 
yesterday's hearing what is the difference between a public 
health lab and a commercial health lab?
    Now, everybody in this room kind of understands that. But 
what you, for the record, and for the folks that are watching 
on TV make the clarification between those in the few seconds I 
have left?
    Dr. Redfield. Thank you very much. We have a series of 
public health labs throughout this country whose primary 
purpose is to do surveillance to kind of get eyes on what is 
going on in the community, and CDC has worked cooperatively 
with them.
    As you know, about 70 percent of our funding that we get 
from you all is then distributed to the state and local, 
territory, and tribal health departments, including their 
public health labs.
    There is also clinical medicine--the practice of clinical 
medicine, the private sector, that actually tries to provide 
diagnostics so we can diagnose diabetes or anemia, lots of 
different diseases and it is really the engagement of the 
private sector to get these tests into clinical medicine, which 
is--it is a partnership between the private sector. CDC usually 
develops the test first, gets it out into the health 
departments to do surveillance, and then the private sector 
comes in to provide the clinical tools we need to basically 
diagnose patients, not the surveillance of a community.
    Mr. Green. OK.
    Chairwoman Maloney. OK. Thank you.
    The gentlelady from Florida, Ms. Wasserman Schultz, is 
recognized for five minutes.
    Ms. Wasserman Schultz. Thank you, Madam Chair.
    Dr. Redfield, yesterday my colleague, Mr. Raskin, asked you 
about a nurse in California who was quarantined after treating 
a patient with coronavirus and showing symptoms of the disease 
herself. She couldn't get tested, if you recall, even though 
her local public health department recommended one.
    She said this, and I quote, ``The public county officer 
called me and verified my symptoms and agreed with testing. But 
the national CDC would not initiate testing. They said they 
would not test me because if I were wearing the recommended 
protective equipment then I wouldn't have the coronavirus.''
    Dr. Redfield, when you were asked about this yesterday you 
said this, and I quote, ``This is a misunderstanding, if it did 
occur.''
    You testified that, quote, ``The test was always available 
in Atlanta, where CDC is located. If you sent the sample to us 
and there was never a time when a health department could not 
get a test, they had to send it to Atlanta.''
    You claimed that CDC's testing criteria never placed 
restrictions on who got tested. Rather, that that was only 
guidance and, quote, ``We always left the discretion to do 
testing to the local public health group.''
    So, the committee staff reached out to National Nurses 
United, the union representing this nurse who was not able to 
receive a test and they sent us the following statement last 
night, and Madame Chair, I ask unanimous consent that this 
Statement be entered into the record.
    Chairwoman Maloney. So, granted.
    Ms. Wasserman Schultz. According to National Nurses United, 
``In recent weeks our union has been made aware of multiple 
circumstances''--and the statement is up on the screen--
``multiple circumstances in which health care workers have been 
exposed to a 0919 infection and have not received COVID-19 
tests, despite requests for testing.''
    They continue, ``There have been too many cases where 
exposed health care workers have been refused testing for this 
to be considered a misunderstanding.
    Further, members of our union across the country have 
reported countless cases in which testing has been refused to 
patients when clinicians have recommended it.''
    Dr. Redfield, the national union that represents nurses 
across this country just issued a statement publicly 
contradicting your testimony yesterday before this committee.
    So, I ask this question, will you admit that there is a 
serious problem in this country with individuals, even health 
care workers, obtaining access to testing for coronavirus?
    You have to turn your mic on.
    Dr. Redfield. Thank you for your question, Congresswoman.
    Ms. Wasserman Schultz. You are welcome.
    Dr. Redfield. I am going to be looking into this in depth, 
as I said yesterday. Clearly, we need to protect the health 
care workers on the front lines. In general, these are local 
decisions on which health care workers need to be tested and 
exposed by the----
    Ms. Wasserman Schultz. OK. But these are workers that--
these are people who contacted CDC and it is CDC that they say 
turned them down and said that they couldn't be tested.
    Dr. Redfield. And I will look into that in detail and get 
back to your office in--as soon as I can.
    Ms. Wasserman Schultz. Well, as soon as you can, hopefully, 
will be today. There are countless more examples of problems 
with people getting access to tests all across the country 
including in my home state of Florida.
    We need to have someone in charge of making sure that as 
many people as possible across this country have access to 
getting tested as soon as possible.
    Who is that person? Is it you? Is it the vice president? 
Can you give us the name of who can guarantee that anyone but 
especially health care workers who need to be tested can be?
    Dr. Redfield. As I tried to explain to Congressman Green, 
from the CDC perspective----
    Ms. Wasserman Schultz. OK. I am asking for a name. Who is 
in charge of making sure that people who need to get tested, 
who are indicated to be tested, can get a test? Who?
    Dr. Redfield. Yes, I was trying to say that the 
responsibility that I have at CDC is to make sure all the 
public health labs have it and they can make the judgment on 
how they want to use it.
    Ms. Wasserman Schultz. But they are referencing people who 
have been advised to be tested to you and they have been turned 
down. So, is it you?
    Dr. Redfield. As I said, I am going to look into the 
specifics there for----
    Ms. Wasserman Schultz. I know that. So, basically, you are 
saying--reclaiming my time. Basically, you seem to be saying, 
because you can't name anyone specifically, that there is no 
one specifically in charge that we can count on to make sure 
that people who need to be tested, health care workers or 
anyone else. There is not one person that can ensure that these 
tests can be administered. Yes or no?
    Dr. Fauci. My colleague is looking at me to answer that. 
Here we go.
    Ms. Wasserman Schultz. OK.
    Dr. Fauci. All right. So----
    Ms. Wasserman Schultz. And I do have another question so if 
we can kind of get to hear the question.
    Dr. Fauci. So, very quickly, the system--the system does 
not--is not really geared to what we need right now, what you 
are asking for. That is a failing.
    Ms. Wasserman Schultz. And--a failing, yes.
    Dr. Fauci. It is a failing. Let us admit it. The fact is 
the way the system was set up is that the public health 
component that Dr.--that Dr. Redfield was talking about was a 
system where you put it out there in the public and a physician 
asks for it and you get it.
    Ms. Wasserman Schultz. OK.
    Dr. Fauci. The idea of anybody getting it easily the way 
people in other country are doing it we are not set up for 
that. Do I think we should be? Yes. But we are not.
    Ms. Wasserman Schultz. OK. That is really disturbing, and I 
appreciate the information.
    Madam Chair, if I can just, quickly, as my other question, 
which is the question I wanted to ask yesterday.
    We have four--in my home county we have four positive Port 
Everglades workers who were tested positive for coronavirus.
    These employees, according to our State Department of 
Health, likely contracted the virus with interactions with 
infected passengers on ships that they were working at the time 
during their shift, ships that held--six to eight ships that 
likely held upwards of 50,000 passengers.
    The people on these ships who were potentially exposed 
should have been notified so they could have taken swift steps 
to protect themselves and others. They deserve to know that 
they had been exposed to someone with the virus.
    Yet, when I asked our Department of Health what steps were 
being taken to determine who came in contact with these 
employees--when I asked the port, the cruise lines yesterday, 
the State Department of Health, the department was not 
forthcoming, didn't direct the cruise lines to notify the 
passengers.
    Instead of being forthcoming with me, the public and those 
passengers, I couldn't get a straight answer from the 
Department of Health and they said that they were going by CDC 
guidelines.
    So, Mr. Redfield, what--Dr. Redfield, what are the CDC 
guidelines for notifying people who have potentially been 
exposed to a confirmed coronavirus case and shouldn't 
passengers on the relevant ships worked by the Port Everglades 
employees who have coronavirus been notified in a timely manner 
so they can take precautionary measures? They still haven't 
been notified.
    Dr. Redfield. Thank you very much, again, for both your 
concern and your question. I know you got a chance to speak to 
Admiral Rendon I think yesterday about that.
    Ms. Wasserman Schultz. Yes.
    Dr. Redfield. And CDC last night spoke with the Princess 
Cruise staff about this situation. They agreed to send a notice 
to all passengers on the ship where the greeters have worked. 
We are, obviously, in contact today with the Florida Health 
Department.
    We would concur that individuals that have been exposed, 
particularly in a cruise setting, should be notified. I think 
the controversy here, Congressman, is its--I think the state 
actually thinks they may have gotten infected in the community. 
But I think we should err on the side of concern and get these 
passengers notified.
    Ms. Wasserman Schultz. The state--respectfully, the State 
Department of Health specifically said in the epidemiological 
study that they did they had not--these employees had not 
traveled internationally, and they had not had contact in the 
community with anyone with coronavirus.
    So, now days and days have gone by. Thousands of passengers 
floated around the ocean with people who had coronavirus likely 
on the ship they were on and days and days have gone by with no 
notification, no precautions that those--that those passengers 
should have taken and they could be out there spreading 
coronavirus right now.
    And today, to this day, the cruise lines still have not 
been notified and urged by any public health entity to notify 
their passengers to make sure that they can figure out whether 
they have been exposed.
    Dr. Redfield. My only comment was after you brought this to 
Admiral Rendon's attention we did have that conversation and 
the Princess Cruise ships----
    Ms. Wasserman Schultz. It is not just Princess. This is 
the--this is the----
    Chairwoman Maloney. The member's time has expired but the 
witness may answer the question.
    Ms. Wasserman Schultz. Thank you. Thank you.
    Dr. Redfield. I just said that based on that the company 
with the cruise ship staff agreed to send a notice to all 
passengers that were on a ship in which any of these greeters 
worked.
    Ms. Wasserman Schultz. Madam Chair, I just want to point 
out it was not just Princess Cruise Lines. This is the second 
largest cruise port in the world and there is more than just 
Princess Cruise Lines that these--that these employees worked.
    Dr. Redfield. We will followup to see what the state--that 
any ship that had passengers that these individuals could have 
exposed will be notified.
    Ms. Wasserman Schultz. Thank you, and I deeply appreciate 
the members' indulgence.
    Chairwoman Maloney. OK. The gentleman from South Carolina, 
Mr. Norman, is recognized for the equivalent time.
    Mr. Norman. A point of order. Do I get seven minutes?
    Chairwoman Maloney. Yes, you do.
    Mr. Norman. Thank you so much.
    I just want to thank each and every one of you for coming 
here. I agree with my--Congressman Higgins that, you know, you 
all need to be on the front lines. I admire you for coming in 
here.
    There is nobody watching across this country that has 
listened over the last few days that doesn't recognize you are 
doing all you can do. There are certain people, certain groups, 
that want to find every fault.
    We are in uncharted waters here. You all are drinking not 
from a fire hydrant but from a tidal wave. I respect and admire 
what you are doing.
    So, please know the majority of the country understands why 
we weren't aware of--I mean, we didn't--we didn't anticipate 
this. You all are handling it and we do appreciate it.
    First question, what--I just met with a company, a Fortune 
500 company who is looking at testing their employees as they 
come in the door and, yet, their concern was, one, frivolous 
lawsuits, class action suits by trial lawyers, HIPAA 
violations, health--you know, you just can't take temperatures 
of people without all type--getting into all type of issues.
    What would--for any of you, what would you say for them to 
do?
    Dr. Redfield. CDC has published our guidance for 
businesses. I encourage them--I heard the first day it got over 
500,000 downloads. I would like people to really look at that 
guidance carefully.
    Second, there are complexities, as we already spoke, about 
testing--probably most importantly, the number of people who 
could actually have this virus and actually have no symptoms.
    The other reality is when the test turns positive after you 
actually are infected is still a scientific question. I can 
defer to Dr. Fauci.
    So, at this stage, we really would like to see the tests 
provided to those individuals that feel they were exposed in 
the clinical setting as we--as we continue to try to expand 
that, those individuals that, obviously, are presented with 
flu-like symptoms in the hospitals.
    Obviously, we want to see the tests used for broader public 
health surveillance. I think that is the stage we are in. But I 
would like to see if Tony wants to add something.
    Dr. Fauci. No, it is. There are two types of situations. 
Dr. Redfield described one, which was the classic tried and 
true CDC-based situation where it is based on the doctor-
patient interaction where a doctor has a patient who wants to 
get tested for cause.
    They are sick. They have been exposed or what have you. 
That works well. The system right now as it exists of doing a 
much broader capability of determining what the penetrance is 
in society right now is not operational at all for us. And what 
the CDC is doing now is that they are taking various cities--
they started with six and then they are going to expand it--
where they are not going to wait for somebody to ask to get 
tested.
    They are going to get people who walk into an emergency 
room or a clinic with an influenza-like illness and test them 
for coronavirus. If you do that on a broader scale throughout 
the country, you will start to get a feel for what the 
penetrance is and that is a different process.
    Unfortunately, our system from the beginning was not set up 
to do that and that is the reason why we are not able to answer 
the broader questions of how many people in the country are 
infected right now. We hope to get there reasonably soon, but 
we are not there now.
    Mr. Norman. What is your opinion on the question I was 
asked by this employer, do I give--do I take the risk of when 
you walk in that door with no symptoms, you just see what--
whether it is the temperature or whether it is asking 
questions, they are petrified of the--of the outcome if they do 
that.
    They are also petrified of somebody having the virus when 
they walk in the door and then being held liable if they 
infect. And this company has 500 employees. They do shifts, 
working three shifts. What would you--what is your advice?
    Dr. Redfield. You know, at this point, our strongest advice 
is that people that are sick need to stay home. Those companies 
that are in areas where we are having significant cases, if 
they can, you know, telework we are recommending that.
    Those companies that are aware with cases we are asking for 
social distancing. We are not asking for everybody to come at 
the lunch time and sit at the same table. We put out a series 
of guidelines.
    But what we are not advocating, you know, and, obviously, 
individuals that just returned from Italy or France or Germany 
we would like them to stay home for 14 days.
    But we are not advocating the use of these tests in a broad 
way in the absence of a relationship with a physician or public 
health official to make that determination.
    Mr. Norman. Second question. We have got probably 80 people 
in this room. The questions that I am getting asked, what are 
the--in this room today, what are the likelihood--I don't know 
what who--I don't know who has got what in this room.
    Walk me through the likelihood of any one of us in this 
room getting the virus, assuming somebody here has the 
symptoms.
    Dr. Redfield. Again, still the real risk in general right 
now--and this is why the president took the action he did last 
night--within the world now over 70 percent of the new cases 
are linked to Europe and in the United States I think it was 
now 30 states in our country--30 of our--30 states or more were 
linked actually to cases of Europe.
    Europe is the new China and that is why the president made 
those statements. Clearly, we can only continue to emphasize 
the basics that we have all said about washing your hands, 
obviously, staying away from people who are sick, learning how 
to cough correctly, don't touch your face, although we all know 
it is very complicated, you know, to try to not touch your face 
during the day.
    But I think it is really important that we also are moving 
quickly with broader mitigation strategies based on the virus, 
and Tony may want to add to this.
    So, some of that is really encouraging social distancing in 
the workplace, really encouraging social distancing in 
restaurants, really encouraging social distancing at sporting 
events.
    So, Tony, you want to add?
    Dr. Fauci. Yes. So, sir, it is a great question because you 
are right, everybody is asking it and the issue is in the 
spirit of staying ahead of the game right now we should be 
doing things that separate us as best as possible from people 
who might be infected and there are ways to do that. You know, 
we use the word social distancing, but most people don't know 
what that means.
    For example, crowds. We just heard that they are going to 
limit access to the Capitol. That is a really, really good idea 
to do. I know you like to meet and press the flesh with your 
constituencies. I think----
    Mr. Norman. Not now.
    Dr. Fauci. I think you need--I think you need to really 
cool it for a while because we should--we should be practicing 
mitigation even in areas that don't have a dramatic increase.
    I mean, everyone looks to Washington State. They look to 
California. They are having an obvious serious problem. But 
their problem now may be our problem tomorrow.
    So, we have got to act like there is going to be a problem 
and that means doing everything you possibly can to do the 
guidelines that the CDC puts up which sound very simplistic but 
they are really important.
    Mr. Norman. Common sense.
    Dr. Fauci. Common sense. Yes.
    Mr. Norman. Finally, I know when this first became public, 
we--I think this country had test kits out in an effort to find 
a vaccine to those willing, I guess, to be tested. Where are we 
on that?
    Dr. Redfield. I want to just sort of stress the complexity 
of getting tests, as we have heard from a number of your 
colleagues, is not just about having the reagents that CDC 
originally made for a test.
    You, obviously, need that test kit and we have put out in 
the public health system over 75,000. So, the public health 
labs have that.
    But the public health labs actually have to have the people 
to do the test and what is their capacity to do the test. They 
have to have the equipment to do the test and what is the 
capacity of the equipment they have.
    They have to have some of the early reagents that they 
need. Not to get too technical, but you got to extract nucleic 
acid in order for the test to go into our kit.
    So, there is a whole system that we can see that there is 
different, you know, limitations as we expand, expand, expand.
    CDC--I tried to explain why we used the system we did, 
which is, you know, a thermocycler system, which is not a 
system that you can do, you know, tens of thousands of tests 
very easy. You are really limited at some labs between, say, 
20, 50. CDC can do between 300 and 350 a day. OK.
    There is other systems that can do, really, thousands, OK, 
and those systems are what are coming online with LabCorp and 
Quest, and actually New York State, really, recently got 
approved to put their system online.
    So, I want people to sort of understand that, you know, 
that whole--that whole scenario in terms of actually--and then, 
you know, one of the great things about LabCorp and Quest 
coming in is they already have the distribution system, the 
collection system.
    So, the more they get into the clinical marketplace the 
faster the American public are going to get access to this.
    Mr. Norman. Well, I just want to thank you.
    And, Madam Chairman, I appreciate you letting me have eight 
minutes. Thank you so much. Thank each one of you.
    Chairwoman Maloney. I hear--getting some good questions and 
good answers.
    The gentleman from Vermont, Mr. Welch, is recognized for 
five minutes.
    Mr. Welch. Thank you very much.
    You know, the question for us now is what can we do and how 
best do we do it, and if I understand--and this is directed to 
Dr. Fauci and Dr. Redfield--is that the two essential things 
are testing and the social distancing or quarantine or 
separation, keeping us apart from one another, is that more or 
less correct?
    Dr. Fauci. Yes. I would put the social distancing and other 
issues of preventing infection ahead of the testing. But the 
testing is very important. Don't get me----
    Mr. Welch. All right. And let me go on the testing, because 
I heard two different emphasis from each of you.
    Dr. Redfield, you were, as I understood it, focusing on the 
doctor-patient relationship and the doctor triggering the test 
in response to a request from a patient.
    Dr. Fauci, what I understood you to be saying is that 
surveillance testing is very useful, and we are seeing that 
with drive-through testing. Am I correct in describing a 
difference?
    Dr. Fauci. Yes, there is a difference, but we should be 
doing both.
    Mr. Welch. Well, that is what I am saying then.
    Dr. Fauci. Yes. Right.
    Mr. Welch. Do you agree with that, Dr. Redfield?
    Dr. Redfield. Yes. The CDC is--you know, we have multiple 
surveillance systems for respiratory disease and flu. I think 
we have, you know, multiple different systems we use----
    Mr. Welch. We don't want to hear about that. We got to----
    Dr. Redfield. No, but we are----
    Mr. Welch. This is right now with this virus. What----
    Dr. Redfield. We are moving----
    Mr. Welch. Should we be having our states like Vermont be 
doing surveillance testing and figure out how to do that in the 
next question?
    Dr. Redfield. What I was trying to say is we are now moving 
our--the COVID-19 into that system. We started with the six. We 
are going to expand jurisdictions. We put----
    Mr. Welch. All right. So, yes or no, should we----
    Dr. Redfield. Yes.
    Mr. Welch [continuing]. In addition to be doing----
    Dr. Redfield. Yes.
    Mr. Welch [continuing]. The individual testing the 
surveillance testing?
    Dr. Redfield. We should be doing--we should be doing both. 
I agree with Dr. Fauci.
    Mr. Welch. OK. So, information, data, is power, correct?
    Dr. Fauci. It is critical and that is what I have said, I 
think, at the last part of the hearing and now.
    Mr. Welch. You did.
    Dr. Fauci. The system was geared for the individual doctor-
patient.
    Mr. Welch. Right.
    Dr. Fauci. What we are going through now transcends that. 
We need to do more than that.
    Mr. Welch. Right. There is a public health issue. So, a 
person who presents has got a problem but it is a problem that, 
unfortunately, that individual is going to share with a lot of 
other folks indirect.
    Dr. Redfield. Yes, and when that individual is confirmed it 
triggers the public health response around that individual.
    Mr. Welch. Let me keep going. Because one of the things we 
have to get here all of us represent folks who are going to be 
getting sick.
    So, this is a--not a red state blue state type of deal. We 
are all in this together and, in fact, if we are not in it 
together, we will all get sick together.
    So, on this question of travel, which is one of the big 
issues, you know, the president is banning travel from a number 
of European countries. Does it make sense to exclude a single 
country, Great Britain?
    Dr. Redfield, is there a medical reason to do that?
    Dr. Redfield. We were looking at the extent of new cases in 
different areas and the reason that Schengen area, because 
there is no borders----
    Mr. Welch. I don't have that much time.
    Dr. Redfield. OK.
    Mr. Welch. I will tell you, I am mystified. If you have a 
number of European countries where there is a travel ban I can 
accept that if that is a medical recommendation about how to 
combat this.
    But then you have one country that is singled out for 
exemption, even though the cases in that country are higher 
than a number of others. How does that medically make sense? I 
will ask you, Dr. Fauci.
    Dr. Fauci. Well, I will do it quickly, hopefully. So, when 
we were looking at the pure public health aspect of it we found 
that 70 percent of the new infections were coming from--of the 
new infections in the world were coming from Europe, that 
cluster of countries, and of the 35 states 30 out of 35 of them 
who were more recently getting infections were getting them 
from them. That was predominantly from Italy and from France 
and from Germany.
    Mr. Welch. OK. Thank you.
    Dr. Fauci. So, when did this--no, there is an answer to 
your question.
    Mr. Welch. Go ahead. OK.
    Dr. Fauci. So, when the discussion was why don't we just 
start off and say banned from Italy, we were told by the State 
Department and others that in fact you really can't do that 
because it is sort of like one country, the whole European 
thing. And the reason I believe that the U.K. was left out was 
because there is a difference between----
    Mr. Welch. All right.
    Dr. Fauci [continuing]. The ease of transportation between 
the European countries and the U.K.
    Mr. Welch. Well, that is Brexit. Thank you. But let me go 
on to my last question.
    My understanding is that the best preparation is advanced 
preparation. I mean, it turns out we don't have the tests that 
we need. There is a lot of confusion about it.
    If before this virus hit us, we had those tests in place, 
we had systems and backup plans in place, that is where you get 
the head start to keep that curve lower.
    I am going to ask you, Mr. Currie, as the head of the GAO, 
was it helpful in our advanced preparation to have disbanded 
the National Security Team Global Health Security and 
Biodefense Directorate?
    Mr. Currie. No, sir. I don't think it was. I mean, we and 
others have recommended for years that there has to be some 
sort of central coordinator above the departments and agencies 
because the departments and agencies can't tell each other what 
to do.
    Mr. Welch. All right. I am going to finish.
    That is one thing that is on the administration. I don't--
Mr. Roy, I agree with you, but I say we ought to put that back 
in place. We got to be prepared in advance and I hope we could 
work together to do that.
    I yield back.
    Chairwoman Maloney. Gentleman's time has expired.
    And the gentleman from Texas, Mr. Roy is recognized.
    Mr. Roy. I thank the gentlelady.
    If I might reserve my time for a minute. I do want to make 
one observation, that--first of all I want to thank the chair. 
I think it is important that the witnesses come back today, and 
I would respectfully disagree with my colleague from Louisiana.
    I think it is important that we hear this because you have 
got 435 Members of Congress who, importantly, have to go home 
and explain to our constituents what is going on.
    So, I think this is very important that we have this 
hearing and continue to have it and thank the gentlemen for 
being here to do that.
    And second, I would observe that when we have these six-and 
seven-minute intervals, the gentlelady from Florida was able to 
explore the questions long enough to get responses and to have 
a back and forth and I think these--that is important.
    I think we ought to have that kind of a dialog instead of 
we get these short increments and we are firing away in order 
to get our camera time and ask our questions.
    So, I appreciate having that flexibility. I think that is a 
good thing is all I am saying to the chair and I appreciate it.
    Chairwoman Maloney. OK. Thank you.
    Mr. Roy. Back to--so on my time I would say, first of all, 
thank you to Dr. Kadlec, Dr. Rauch. Thank you for your time 
yesterday. You addressed the issue that we were dealing with in 
San Antonio. I think that is a good example of how the 
administration can respond and deal with these kinds of issues 
and I appreciate you doing that. We resolved that. Thank you. 
Or at least I think we have.
    Second, our job as leaders is to present, in my view, calm, 
resolve, focus on the facts, and to go through this so that--so 
that the American people know that we are on top of this. And I 
believe that we are on top of this, but we are trying to move 
forward positively.
    I think we need to--we know now we need to minimize social 
engagement while, importantly, maintaining commercial activity. 
Our lives depend on vibrant commercial activity. So, we have a 
responsibility to talk about this in a rational and sane way so 
that we maintain commerce, the very commerce that will save 
lives, the very commerce that will allow us to be able to 
produce wealth and opportunity and create jobs and be able to 
pay for things while having the kind of social distancing that 
the gentlemen are referring to. We have got to come up with 
ways to do that.
    Last night, I spoke on the phone with Dr. Shuren at the FDA 
and got some updates on some of the testing information because 
I wanted to talk to somebody at the FDA, and my understanding 
in response from them--and he is not here to testify, so I want 
to validate this--was that he talked about upwards of 2 million 
tests--those aren't individual test kits but the ability to 
test 2 million times were coming to availability this week, 3 
million more in the next week and that we have got a rather 
large and robust testing ability coming to market shortly, that 
we have got private enterprises producing these tests.
    We have got universities, state public officials that have 
the ability to test and that we are now getting to the place of 
scalability to ramp up and have a fairly sizable large amount 
of testing ability in our robust Federal system.
    Would you agree, Dr. Redfield, that that is the trajectory 
of where we are headed?
    Dr. Redfield. Since March 2, there has been, I have been 
told, over 4 million tests now to have entered the market. But 
what I want to say the test isn't the whole answer.
    Mr. Roy. Right.
    Dr. Redfield. You need people to do the tests, laboratory 
equipment to do the test. You need some of the reagents that 
actually now are in short supply to prepare the test. You need 
the swabs to take the test.
    So, we are working very hard with the FDA to make sure all 
these different pieces--you know, right now the actual test to 
do this coronavirus test I think we have the test in the 
marketplace.
    The question is how do you--how to actually operationalize 
them and I think that is what Tony and I are saying is the big 
challenge right now.
    Mr. Roy. Well, and I appreciate that because that goes to 
the heart of--there is a lot of rhetoric flying around both 
sides of the aisle, all over the place, about tests, test kits, 
testing, and what we can do.
    We have a significant amount of scalability in this country 
that we have got to leverage for our benefit but also recognize 
we have 330 million people. That is compared to 50 million in 
South Korea.
    We have different--we have a Federal system. We have 
states. We have to navigate through that, and we need to make 
sure that we have the right tests and the tests are effective.
    There are some questions, as I talked last night, about 
whether the Korean test was as effective as we might prefer. 
There is some debate about that.
    So, is that a fair statement about making sure that we are 
working through to make sure we have got the right tests while 
we are working to make sure we have got all the materials, by 
the way, remembering that we have got supply chain issues we 
have got to deal with, given the worldwide connection and the 
supply chain.
    Dr. Redfield. Yes. A critical regulatory role that the FDA 
really holds, which is important that we have tests that 
actually work, and we actually can be assured of that.
    I can tell you that the tests that are currently being put 
out both by--to the public health labs and by LabCorp and the 
private labs they actually work.
    The challenge is really, and this is what I want to really 
emphasize, we focus so much on the actual kit of the test.
    Mr. Roy. Right.
    Dr. Redfield. We have to focus now on the whole--the whole 
system to get that testing really rolled out both for 
surveillance, which is CDC's main job, and to clinical 
medicine.
    Mr. Roy. That assertion was made a little bit earlier or a 
question was raised about who is in charge, right. One of the 
difficulties of a Federal republic like ours, right, is that 
there isn't one person in charge of making all of this happen, 
right.
    But isn't that also--you know, some people might say that 
is a bug versus a feature. Some might argue that it is a 
feature with 50 laboratories of democracy, with 50 states and 
universities and labs being able to produce different ways of 
coming up with testing and navigating this and our markets 
being able to scale up and produce that that is something, 
again, keeping in mind that the American people are listening 
and that we are trying to explain how this system works, that 
there isn't a singular top-down approach in our country to 
doing this.
    But that is the same America that has, you know, stomped 
out Nazism, that has put a man on the Moon, that has cured 
polio, that has gone through and done the things that were 
reacted in 9/11, built and rebuilt southern Manhattan, that 
this is the America that rises up to deal with these kind of 
solutions and I think it is important that we talk about that 
in its complexity and its wholeness.
    Dr. Redfield. I would like to make one comment because Bob 
Kadlec is here, and he is in charge of our overall what we call 
incidence management structure. Maybe he would like to comment.
    Mr. Roy. I would appreciate that, Dr. Kadlec.
    Dr. Kadlec. Well, thank you, sir, and thank you, Dr. 
Redfield.
    Very simply, given the nature of our system and 
particularly the Federal Government where there are health 
components across the domain, Department of Defense, VA, 
Department of Homeland Security, the responsibilities fall to 
my position to basically manage and integrate and synchronize 
those efforts so we can kind of come with a unified response 
most importantly to support state and local authorities in 
disasters.
    Mr. Roy. Right. Thank you, Dr. Kadlec.
    Madam Chair, I appreciate it.
    Chairwoman Maloney. Thank you. Thank you.
    The gentlewoman from Illinois, Ms. Kelly, is recognized.
    Ms. Kelly. Thank you, Madam Chair, and thank all of you for 
being here. I know you have been working very hard, and I have 
seen you multiple times myself.
    I am the chair of the congressional Black Caucus Health 
Braintrust and also my district is urban, suburban, and rural. 
When I hear you talk about there is 30 states that have been 
affected so far but within those states do you see it more 
urban or is it a mixture?
    And I know--and I am talking about the people that have it 
by no obvious means, not the people that were in Italy and 
where they go back to live, but just the people that are 
getting it by not an obvious means.
    Dr. Redfield. Yes. Just for clarification, when Tony and I 
were mentioning the 30 out of 35, it was really at a time for 
the analysis that comes from Europe. As of this morning now we 
have 44 states and the District of Columbia that have reported 
at least one case.
    And I will say that I am not going to comment in the 
distribution. I can get that exact information for you. But it 
is--you know, we are seeing more and more jurisdictions report 
their initial case across the country now.
    I think this is one of the big reasons why the president 
made the decision. We need to use our efforts right now to 
really continue to try to contain this outbreak with the cases 
we have and let the public health system focus on that around 
those clusters, do aggressive mitigation.
    But if we continue to have individuals coming in that seed 
new communities all through the country, it will be very hard 
for us to get control of this and that is why this is sort of 
an integrated multi-layered public health approach right now.
    But don't underestimate the importance of our local public 
health system to do their public health job. It still is 
something we shouldn't give up on.
    Ms. Kelly. Yes. Well, I won't, but my concern also is in 
underserved communities. They have a lack of access to, you 
know, some of the public health or health care.
    Dr. Redfield. I will say it is our concern, too. I mean, we 
are trying to look at strategies now for homeless populations. 
We really are concerned for really all of America.
    Ms. Kelly. Mm-hmm. The other thing is, a doctor I know told 
me that she received a fax and the fax said that she could--I 
am trying to think for her exact words--work around or go 
around the CDC and get tests herself and swab the nose like you 
talked about, and then Quest Lab would pick up the test.
    Is that correct? She is in New Jersey.
    Dr. Redfield. Yes, that is correct. Getting the--again, the 
spirit of America. When the vice president met with all of the 
major diagnostic companies they didn't come there as individual 
companies.
    They said, we are in this together. How can we step up. And 
they are all moving up, Quest and LabCorp being the biggest. 
They are all--they are activated their entire system and they 
are beginning to phase those tests in.
    The real kick will come when they are able to transfer the 
platform from the platform that we developed to what we call 
this high through-put platform which I am told should happen 
soon.
    They are working hard to validate that with the FDA so they 
can go to the high through-put platform, like New York State 
was validated yesterday, Chairwoman. So, they are up and 
running with the high through-put platform now.
    Ms. Kelly. And then also quarantine is for those exposed 
but not yet sick. But if someone in quarantine gets sick do you 
switch them to isolation onsite or move them to a private 
hospital? What happens?
    Dr. Redfield. Yes. If they do get sick and then we--of 
course, someone's in self-isolation or self-quarantine at home, 
they are being monitored for symptoms, if they--if they do 
become symptomatic they get a comprehensive medical evaluation 
and then, obviously, either return to home isolation if that is 
the medical appropriate decision for them--that it is just a 
sore throat--or if they look like they need medical attention 
they are going to get hospitalized and managed in isolation.
    Ms. Kelly. And then how are those costs covered for a 
private hospital? Does CDC cover their out-of-pocket cost or 
how does that work?
    Dr. Redfield. Well, the department has the authority to 
reimburse those, OK. CDC has the authority. The department has 
authority. The department--we are working now to determine the 
best way to accomplish that.
    Ms. Kelly. And have you--maybe someone asked you this--
looked over the legislation that we will be considering today? 
Have you?
    Dr. Redfield. I haven't seen the legislation.
    Ms. Kelly. OK. Thank you. I yield back.
    Chairwoman Maloney. Thank you.
    The gentleman from Pennsylvania, Mr. Keller, is recognized 
for five minutes.
    Mr. Keller. Thank you, Madam Chair, and thank you to the 
panel for being here again today.
    I know there has been a lot of things that have happened 
and we have actually been trying to--I know we did the 
supplemental appropriation and made the funds available, also 
communicating with many Federal and state agencies to make sure 
we get information out to our constituents.
    So, that is a lot of what we have done. Even this morning 
had a couple briefing, a bipartisan briefing in the Capitol 
Visitors Center, also on the phone with the White House and 
some other--some other people.
    In addition to that, in Pennsylvania our secretary 
general--physician general, excuse me--Physician General of the 
Commonwealth, Dr. Rachel Levine, actually had a call with all 
members of our delegation and members of the Pennsylvania 
General Assembly to go over what the Wolf administration is 
doing.
    So, there has been a lot of activity as far as what I have 
seen trying to make sure people are informed. I know we talk 
about social distancing. So, maybe I can just cover that 
because I know one of my colleagues had a question about that, 
too.
    You mentioned social distancing. But what does that mean 
for--I know we talked about a lot of sporting events and 
schools, but are there any other private events where people 
might want to think about social distancing and what might 
those places be?
    Dr. Redfield. I will have Tony add. But we are giving out 
guidance in terms of the size of events that should happen, you 
know, and really discouraging people from having large events.
    Now, it is different in different communities by the 
kinetics of the outbreak right now. I mean, we are looking at 
each community to develop it. That is why we put our matrix out 
there. Social distancing is we want people to stay six feet 
away or more.
    Mr. Keller. OK.
    Dr. Redfield. So, if you--if you can have an event and keep 
people outside and they can stand 10 feet away from each other, 
you know, that is how we refer to social distancing.
    But you see--we really are, you know, in a mode that this 
is time for big events like March Madness, big events like 
these big sports arena things to take a pause for the next four 
to six to eight weeks while we see what happens with this 
outbreak in this Nation.
    Mr. Keller. OK. Thank you.
    And, again, I am going to reference back what the physician 
general had said so far because I know there has been a lot of 
questions about testing and Dr. Levine said so far in 
Pennsylvania in every case where a doctor deemed a COVID-19 
test to be medically necessary that test was performed.
    So, that is according to Dr. Rachel Levine. She later went 
on to say that the state has the capacity to do the number of 
tests per day that they need to or that they can do their 
capacity and mentioned actually LabCorp and Quest Diagnostics 
are now able to provide the tests in Pennsylvania.
    These companies will report any positive results to the 
state and they will be made public. So, it appears like 
Pennsylvania--you know, the fifth largest state by population 
in the Nation and the world's eighteenth largest economy--has 
sort of figured this out because she goes on to say, we will 
meet the--we will meet the demand for testing and we are 
following the guidelines to do that.
    So, Pennsylvania is able to do that. What things might have 
happened in Pennsylvania that we could put in place in other 
parts of the country if they are having trouble with testing?
    Dr. Redfield. Thank you, Congressman.
    I think the big issue is just effective communication 
because, you know, Quest and LabCorp is really in all of the 
states in the country.
    Moving forward, we have gotten--all the public health labs 
have gotten the resources from CDC. I was told by the head of 
the American Public Health Labs in the last 24 hours that he 
has gone through all the public health labs and not a single 
lab lacks the kit, the reagents, the capacity to do testing 
right now.
    So, I do think a lot of it is just effective communication.
    Mr. Keller. Well, it seems--it seems like Dr. Levine and 
the people of the Pennsylvania Department of Health seem to be 
headed in the right path. So, I am glad for that and I am 
just--I am just hopeful that we can replicate that.
    Dr. Redfield. I would just like to add my congratulations 
to them. I mean, I know Rachel well. They are a very serious 
health department and they have stepped up.
    Mr. Keller. Thank you.
    Dr. Fauci, what can we do as Congress to continue to work 
with the Trump administration and state health agencies to 
ensure that the public health experts and private sector health 
care providers have what they need to continue to respond to 
COVID-19?
    Dr. Fauci. I believe you have already done that in--to a 
big extent by the supplement that you have done, the $8.3 
billion supplement, which really allowed us to do the kinds of 
things. Each of us are responsible for different aspects of the 
response.
    I know, speaking for myself and my agency, the NIH, the 
amount that we got from that supplement--that we will get from 
that supplement--will allow us to really accelerate what we 
have done in the arena of therapy as well as the development 
and acceleration of vaccines.
    So, I want to thank you for that. That is probably the most 
important thing.
    The other thing I think is important is what you are doing 
right now to have the opportunity to come before you within 
reasonable--now, I don't want to come every day but to come 
enough to be able to really get the American public to really 
hear from us because this is an evolving situation. It is not 
static. It is not one off and you are done. It is going to just 
evolve over the next several weeks.
    Dr. Redfield. I just want to add one point. It has been so 
important. CDC just announced that we are going to award over 
$560 million to the front lines of this response. That is the 
local, state, and territory health departments.
    Mr. Keller. Thank you.
    Chairwoman Maloney. Does the gentleman yield back?
    Mr. Keller. I yield back.
    Chairwoman Maloney. Thank you.
    The gentlelady from the Virgin Islands, Ms. Plaskett, is 
recognized for five minutes for her--such time as you may 
consume.
    Ms. Plaskett. Thank you. Well, let us not do that. I could 
talk for a long time.
    But thank you very much, Madam Chair, and I want to thank 
you gentlemen. I was there at the briefing that you had this 
morning. I know that you went over to the Senate. You were here 
yesterday, and you have come back. And so your openness is 
really appreciated and the information that you are sharing 
with us that we will get out to the American people to try and 
make sure that the right information is there.
    One of the things that I just want to mention that I am 
concerned about is as we are doing this containment and we 
close schools, there is a digital divide in this country where 
young people will have issues with keeping up with work.
    In some of the areas, the urban areas that my colleague, 
Ms. Kelly, was talking about, in the Virgin Islands we have the 
highest broadband capacity in the United States outside of New 
York City but the lowest rate of connectivity to homes. And so 
these are the things that I think we also need to be concerned 
about.
    We are looking at supporting economies but just our 
children alone as well as the issues of health and nutrition 
that I think many kids will face if they are restricted from 
going to school when so many of them rely on school lunches and 
breakfasts for their nutrition.
    But I wanted to ask you about isolated areas like the 
Virgin Islands. We are concerned right now. We have an 
individual of interest that has been isolated. But, like 
ourselves and Puerto Rico--like Puerto Rico is like us--we have 
not fully recovered from the hurricanes of 2017.
    We have seven hospital beds available between the two 
hospitals for a population of over 100,000. That is very 
troublesome as to what is going to happen to us. So, I am glad 
that you said, Dr. Redfield, that you have the funds, you 
believe, in place now to do a response.
    Can you tell me, one, in terms of personnel what--Dr. 
Kadlec, I think you would be the appropriate person. How do we 
get these out? How do you get your personnel out? Because along 
with the shortage of beds we also have a shortage of personnel.
    Dr. Kadlec. Thank you, ma'am, for the questions. I mean, 
there are two elements to our ability to response to these 
kinds of scenarios and one is through our National Disaster 
Medical--Disaster Medical Assistant Teams, or DMATs, and those 
are intermittent Federal employees who work across the Nation 
at some of the premier hospitals and medical institutions 
around the country--Mass General, Stanford, the like.
    And so, obviously, in a scenario when there is a potential 
event of this nature where it can happen anywhere and 
everywhere in the country, we have to be very selective in how 
we do that and we have been deploying those assets to respond 
to events.
    So, that is one part of it. The other part of it is with 
the Public Health Commission Corps, who are a vital member of 
our, if you will, team. They belong to the assistant secretary 
for health. There are several thousand of them.
    I think the intent of Admiral Giroir, though he is not here 
today, is to expand their expeditionary role to serve in these 
kinds of capacities.
    Today as we speak in Seattle in the nursing home that is 
being afflicted by the COVID virus, there are almost two dozen 
Public Health Commission Corps officers that are working to 
assist health care workers there.
    Ms. Plaskett. So, now, are you able to bring people to 
locations that are in need and how do you prioritize what those 
locations are?
    Dr. Kadlec. Well, obviously, it is going to be based on the 
need and based on what the capabilities are domestically or in 
that area.
    So, based on our conversation before this hearing, I have 
already contacted my principal deputy about your situation and 
our intent to find ways that we can augment or support what is 
needed for your constituents.
    Ms. Plaskett. Great.
    Mr. Currie. Ms. Plaskett, can I mention something really 
quick?
    Ms. Plaskett. Yes, please. Mr. Currie?
    Mr. Currie. Sorry, I can't help myself because I do work on 
disaster recovery for FEMA and I have been to the Virgin 
Islands after Hurricane Irma. And I would suggest that you talk 
to FEMA as well because, you know, they do have an open--still 
an open disaster declaration on the island. You know, I have 
been to the hospital in St. Croix. I know it is destroyed. I 
know they have a temporary hospital. So----
    Ms. Plaskett. Well, we don't have a temporary hospital. It 
has been approved.
    Mr. Currie. Not yet. Right.
    Ms. Plaskett. Two years later.
    Mr. Currie. So, I suggest you contact FEMA because they 
have a lot of people on the ground there and in Puerto Rico----
    Ms. Plaskett. Sure.
    Mr. Currie [continuing]. And check with them on what they 
can do under the--under the umbrella of the current recovery.
    Ms. Plaskett. Sure. I mean, I have found that FEMA has been 
great in disaster initial recovery, but the aftermath and 
rebuilding is a little slower. The fact that we still two years 
later do not have our mobile unit for a hospital shows that 
there are gaps in FEMA as well.
    So, I do understand. You know, there is a question of 
should all of these kinds of things--is this a disaster and 
should this be all within one umbrella so that we are not 
talking to disparate agencies at the same time. But I agree 
with you and I believe our Governor is having that discussion.
    The other thing I wanted to bring up very quickly is cruise 
ships, and you talk about containment. We know that individuals 
coming off of a cruise ship cannot be tested immediately.
    So, when you have individuals who--places like the Virgin 
Islands which rely heavily on tourist populations, what is your 
advice to us in terms of ensuring that we contain ourselves so 
that we do not have a spread of this?
    Dr. Kadlec. Well, ma'am, one thing that is ongoing is that 
the cruise industry is trying to advance what would be healthy 
kind of practices for their own--for their own cruise ships so 
they can monitor people.
    Naturally, they have submitted a proposal to the U.S. 
Government kind of outlining what their approach is. I think 
one of the things they include there is actually monitoring, 
doing surveillance of their passengers, being able to do 
testing of their passengers on the boat, having medical 
referral capacity to medivac them if they have to and even 
having quarantine capabilities.
    So, that is an ongoing dialog between the cruise industry 
and the U.S. Government. So, I think it is--they see it as an 
important responsibility to their customers and to their 
passengers and we agree as well.
    Ms. Plaskett. Mr.--Dr. Redfield, did you want to add 
something?
    Dr. Redfield. Well, we have definitely put out our guidance 
that we are strongly advising individuals with serious medical 
conditions, especially the elderly, that they should reconsider 
all cruise travel at this point.
    Ms. Plaskett. Now, that supports the passengers that are 
there from being infected by others. But what about those who 
are passengers infecting individuals when they come off of the 
cruise ship?
    Dr. Redfield. So, again, this is why it is so important--
the surveillance. As we know, there is, I think, 12 cruise 
ships across the world right now that have been looked at for 
potential COVID-19.
    As Dr. Kadlec said, there is very active discussions right 
now going on to what decisions should be made about the cruise 
industry at this time.
    Tony, I don't know if you want to add anything.
    Dr. Fauci. There was a meeting with the cruise ship 
executives, the CEOs, to tell them they really got to come 
forth with a plan to tighten up the protection of people who go 
on as well as what happens when they go off.
    So, that is--that is--they have been given the mandate to 
fix it and if they don't fix it then they are going to maybe 
get some regulations that they don't like.
    Ms. Plaskett. Thank you. Thank you very much.
    I yield back.
    Chairwoman Maloney. The gentlewoman from Massachusetts, Ms. 
Pressley, is recognized.
    Ms. Pressley. Thank you--thank you, Madam Chair, and thank 
you to our esteemed witnesses for returning to day.
    You know, since the beginning of the COVID-19 outbreak we 
have seen not only the spreading of the virus but also a rapid 
spreading of racism and xenophobia. We have witnessed at the 
highest levels, in fact, of the Republican Party fanning 
irresponsibly these flames. One colleague tweeted that 
``Everything you need to know about the Chinese coronavirus,'' 
unquote.
    My district is home to nearly 32 percent foreign-born 
residents with more than a quarter immigrating from Asia. This 
painful rhetoric has consequences. Restaurants across Boston's 
Chinatown have seen up to an 80 percent drop in business and I 
believe this has everything to do with the rapid spread of 
misinformation and paranoia.
    It is critical that we stand against these inciteful 
messages and assuage fear in our communities, and we do that by 
dispelling untruths and misinformation. We can only do that by 
sharing the facts and that is why I am grateful to have you 
here today so that we can get to the truth about this virus.
    Thirty thousand residents across my district are uninsured 
and lack access to health insurance coverage. Many of these 
people are low wage hourly workers, food service staff, nursing 
aides, hotel workers. A day off from work due to illness could 
mean losing a month's worth of groceries.
    The CDC's website advises people experiencing symptoms 
related to coronavirus to stay home and seek out medical care. 
But it doesn't really address the realities of living 
uninsured.
    Dr. Redfield, if I am a symptomatic hotel worker who is 
pre-diabetic, uninsured, and lacks the savings to cover the 
cost of testing and treatment, what specific guidance do you 
have for me?
    Dr. Redfield. A very important question. Obviously, we want 
you to be able to stay at home and this, I think--I don't know 
exactly where it is, Tony, but I think there is, clearly, a 
great recognition of this issue by the White House Task Force 
and I don't know where it is in the--as far as it is, you know, 
in getting its way to you. But I can tell you, we have 
addressed this as a critical public health component.
    We need these individuals to be able to do their 14 days at 
home and not have to sneak out for an hourly job because they 
have to pay for their cost of living. So, I can tell you that 
the White House task force is addressing this.
    Tony, do you want to add any----
    Ms. Pressley. Well, Dr. Redfield, if I might. Will the cost 
of testing be covered?
    Dr. Redfield. Cost of testing will be covered.
    Ms. Pressley. And what about treatment?
    Dr. Redfield. Cost of treatment will be covered.
    Ms. Pressley. OK. And so--and I appreciate that these 
conversations are happening. In terms of information that is 
public facing and accessible to the general public, as of this 
hearing neither the CDC's portal for coronavirus or its FAQ--
frequently asked questions--page has information about what the 
tests cost, who will cover it, and whether uninsured people can 
be tested.
    And so this has contributed to the confusion and the panic. 
So, can you please make a commitment today to add this 
information to the website?
    Dr. Redfield. We will--we will do our best to clarify. 
Related to costs, particularly for LabCorp and Quest, they 
haven't really defined it. But they have shown their leadership 
in rolling it out independent of that.
    But I will get as much information as I can on that website 
and keep it updated.
    Ms. Pressley. OK. So, I can take that as an affirmative, a 
yes. OK.
    Dr. Fauci, I am uniquely concerned about people with 
autoimmune disorders and those dealing with underlying health 
conditions like HIV or lupus.
    Briefly, is there any specific guidance for how these 
vulnerable groups can protect themselves?
    Dr. Fauci. They fall into the--that is a great question, 
Ms. Pressley. Thank you for asking it.
    They fall into the category of those that I have been 
saying multiple times at this hearing and other places--are in 
that category that if they get infected likely many of these 
people are on immunosuppressant drugs, particularly people with 
autoimmune disease, that they need to take extra special 
precaution.
    In other words, they are vulnerable and they need to help 
protect themselves and society needs to help to protect them. 
In other words, keep people who are sick away from them.
    Keep them even more stringently apart from crowds. Don't 
travel unless it is necessary on long trips and, above all, 
stay away from cruise ships.
    Ms. Pressley. OK. All right.
    So, I want to turn to another issue. One group we haven't 
heard much about are the 2.3 million people who are in prison 
or jail.
    Mr. Redfield, about 10 percent of federally incarcerated 
people are over the age of 60. Many of these people have 
underlying health conditions and, based on your own criteria, 
are most at risk for severe complications due to infection from 
the coronavirus. These individuals often lack access to 
alcohol-based sanitizer, hand soap, warm water, and regular 
showers.
    Dr. Redfield, yes or no, has the CDC offered guidance to 
the Federal Bureau of Prisons about the coronavirus?
    Dr. Redfield. Let me get back to you with the specifics of 
what we have done. I know we have guidance to the correctional 
system in general. But rather than answer or give you a half 
answer, let me get back to you and I will do that today.
    Ms. Pressley. OK. So, not a yes or a no, unsure----
    Dr. Redfield. I just want to be accurate. OK.
    Ms. Pressley. OK. All right. So, you know, certainly, 
prisons can be incubators for infectious disease and that puts 
those in prison at risk as well as those who are employed 
there.
    What recommendations and protocols has the CDC provided to 
Federal, state, and local corrections systems about preventing 
or responding to an outbreak?
    Dr. Redfield. And, again, Congresswoman, I want to--I will 
get back to you today. I want to be accurate with my response.
    Ms. Pressley. OK. So, you will get back later today?
    Dr. Redfield. I will.
    Ms. Pressley. All right. Thank you, Doctor.
    And just because the administration has touted and 
expressed commitment to criminal justice reform as a priority, 
you know, this president has granted less commutations than the 
prior administration.
    However, with overcrowding the Federal corrections system 
is a breeding ground for deadly outbreak.
    Dr. Fauci, has the president or any member of the task 
force raised clemency power as a method of preventing a 
potentially devastating outbreak?
    Dr. Fauci. To my knowledge, no. But I--you know, they may 
have done it not in my presence but to my knowledge they have 
not.
    Ms. Pressley. OK. All right. thank you, and I yield.
    Chairwoman Maloney. The gentlelady yields back.
    The gentleman from Ohio, Ranking Member Jordan, is 
recognized for five minutes.
    Mr. Jordan. Thank you, Madam----
    Chairwoman Maloney.--for as much time as he may consume.
    Mr. Jordan. Thank you, Madam Chair. I appreciate our 
witnesses being here today. I am going to yield again to Dr. 
Green and let him ask some followup.
    Mr. Green. Thank you, Mr. Jordan.
    I want to make a couple points and then ask some questions. 
The first point I wanted to make is on the 2015 Biodefense 
Study that was done under the Obama Administration.
    The Trump administration has followed that. That 
recommended that the vice president be the person in charge of 
the task force and President Trump's administration has 
followed the recommendations of the Obama Administration on 
that and I just want to be clear about that because there has 
been some criticism.
    On the South Korean tests, we have had a lot of comparisons 
of how they have done testing much faster than us. I have a 
letter from the FDA that says the South Korean tests--I want to 
make sure this is on the record--the South Korean test is not 
adequate.
    A vendor wanted to purchase it and sell it and use it in 
the United States and the FDA said, I am sorry, we will not 
even do an emergency use authorization for that test. So, I 
have that letter if anybody wants to see it.
    Dr. Rauch, I would like to ask you a question about the DOD 
and their--as I understand it, they have assessed field 
hospital resources. They have their ICU beds and ventilators. 
You have got the count. Can you tell us a little bit about what 
the DOD is prepared for or has looked into should we exceed 
private hospital bed capacity?
    Dr. Rauch. Yes, thank you for that--for that question. We 
have done a current assessment of our military treatment 
facilities. We know the number of beds. We know the amount of 
staff per bed.
    We know the amount of occupied beds. We know the ICU 
capability and we know our alternatives for increasing the 
number of beds and increasing the staff for those--for those 
beds. We also know the inventory of our personal protective 
equipment for the medical force. So, that is for the--that is 
for the MTFs.
    We also have done an assessment and we know the current 
capability--the current status of our military operational 
deployable medical assets. So, we have that for ready to 
respond--we stand ready, you know, to respond to the commander 
in chief's needs.
    Mr. Green. As the Nation needs. Thank you.
    I want to ask, and I think the question might be best for 
Dr. Fauci. You know, we--most of the people on this panel we 
are not scientists.
    I consider myself to have the equivalent of an orange belt 
in this, you know. I know just enough to get myself in trouble. 
But, you know, the rapidity, the speed with which you guys have 
gotten this vaccine up and, you know, ready to go into stage 
one is unprecedented.
    It is breaking records and I want you to just brag a little 
bit on yourselves. Tell us how hard that is and why we should 
all be very grateful for the folks that have put that together.
    Dr. Fauci. Well, why don't I just describe what it is 
instead of self-congratulating?
    [Laughter.]
    Mr. Green. OK. That is fine. That is fair.
    Dr. Fauci. All right. So, it really is the culmination of a 
lot of basic research over the years and we thank the 
committee, as always, for the--you know, the kind of support 
that Congress has given the NIH, which not only does research 
ourselves but funds investigators throughout the country and 
the world.
    The platform that we use, and we are not--this isn't the 
only one. There are more than a handful of vaccines going. But 
the ability to use technologies that we never had before to 
take the sequence--so the Chinese didn't have to send us the 
virus.
    They just published the sequence on a public data base. We 
knew the gene that would code for the protein that we wanted to 
make our vaccine. So, all we did was pull the information right 
out of the data base.
    We made it--synthesized it very easily overnight, stuck it 
into our platform and started making it, and we said at that 
point that it would take, I would say, two to three months to 
have it in the first human.
    I think we are going to do better than that and I would 
hope within, you know, a few weeks we may be able to make an 
announcement to you all that we have given the first shot to 
the first person.
    Having said that----
    Mr. Green. Wow.
    Dr. Fauci [continuing]. I want to make sure people 
understand, and I say that over and over and over again, that 
doesn't mean we have a vaccine that we could use.
    Mr. Green. Right.
    Dr. Fauci. We mean it is record time to get it tested. It 
is going to take a year to a year and a half to really know if 
it works.
    Mr. Green. Right. I really did want to be clear on that, 
too, and thank you.
    If I could ask or make one other quick statement, Madam 
Chairman, and I will be very fast.
    Chairwoman Maloney. You have got to be fast because we are 
being told that they have been--this is their third meeting of 
the day and we have to go back to a strict five minutes because 
they have to leave soon.
    Mr. Green. Real--I will be real quick.
    Chairwoman Maloney. OK.
    Mr. Green. Over the weekend, the cruise ship--I had a 
constituent call. There were meds that she had run out of 
because the ship was still at sea. I called HHS.
    They found somebody at Coast Guard. They flew that woman's 
medications out to the ship. You guys are doing great work. 
Thank you very much.
    Chairwoman Maloney. Thank you very much. The gentleman 
yields back.
    And the gentlelady from Michigan, Ms. Tlaib, is recognized 
for five minutes.
    Ms. Tlaib. Thank you. I am sorry that I am all the way in 
the corner here. But I really think this is an important 
conversation about the extent and making sure we have access to 
information for our residents at home.
    You know, earlier this week, Congress's attending physician 
told the Senate that he expects between 70 to 150 million 
people to eventually contract the coronavirus in the United 
States.
    Dr. Fauci, is he wrong?
    Dr. Fauci. Who was it that said? We have to be----
    Ms. Tlaib. It is Congress's attending physician.
    Dr. Fauci. Yes. I think we really need to be careful with 
those kinds of----
    Ms. Tlaib. Sure.
    Dr. Fauci [continuing]. Predictions because that is based 
on a model. So, what the model is--all models are as good as 
the assumptions that you put into the model. So, if you say 
that this is going to be the likely percent of individuals----
    Ms. Tlaib. So, what can we do to define it? Is it testing?
    Dr. Fauci. No. No. It is unpredictable. So, testing now is 
not going to tell you how many cases you are going to have.
    Ms. Tlaib. Mm-hmm.
    Dr. Fauci. What will tell you what you are going to have 
will be how you respond to it with containment and mitigation. 
So, I just want make a point that I hope the public gets.
    When people do models, they say this is the lower level, 
this is the higher level, and what the press picks up is the 
higher level and they will say you could have as many as. 
Remember, the model during the Ebola outbreak said you could 
have as many as a million. We didn't have a million. OK.
    Ms. Tlaib. Oh, that is great. OK. So, I spoke to federally 
accredited clinics in my district and one of the things that 
they are noticing is capacity regarding their front line kind 
of health care workers and various hospitals that rely on 
about--one hospital in my district relies on a thousand 
Canadian nurses from Canada that come across.
    I think the total for the whole state of Michigan is 3,000. 
So, they are very worried about borders being closed and not 
getting access to those really front line communities that need 
help.
    I do want to air it for folks, and this could be a question 
to Dr. Kadlec. I am really concerned about this because one of 
the federally accredited clinics said, you know, that is her 
biggest worry is that folks are not going to be able to come 
back to work and what are we doing to prepare those 
individuals.
    In the meantime, while you do this, I do want to just 
submit for the record congressional doctor predicts 70 to 150 
million U.S.
    Ms. Tlaib. So, and this is important because I think we 
need to continue with the sense of urgency and not try--because 
the more we do that I think the more important it is that my 
colleagues understand the supplemental bill that now is being 
told to be hold up for two weeks for help to communities like 
ours around the country, is now being held up and politicized 
when this is really--there is no R or D next to this 
coronavirus.
    It needs to be able to move forward so we can--but, Mr. 
Kadlec, can you answer the question? Because this is exactly 
what I heard from the hospital, two of the hospitals and two of 
my federally accredited----
    Dr. Kadlec. Well, ma'am, two parts, to deconstruct your 
question. One is about the question about whether or not border 
crossings would be inhibited, and I would have to refer to the 
Department of Homeland Security.
    But the other one, there are some work practices that have 
to be evaluated. There have been others who have questioned 
about whether or not the issues of furloughs are necessary for 
people who have been exposed or potentially at risk for 
coronavirus and how that works.
    I mean, in the state of Washington, for example, there are 
health care workers who are actually working. They are 
coronavirus positive but asymptomatic and they are continuing 
to work on coronavirus patients so that they don't pose a 
hazard to someone who is not ill with coronavirus.
    So, there are some issues that have to be sorted out there. 
But I will have to go back and--for your question about the 
border control issue. I would have to make that reference to 
DHS.
    Ms. Tlaib. Yes, and I will followup as well. I mean, my 
last thing is, Dr. Redfield, you know, I think it is really 
important for this body and I think both of my colleagues on 
both sides of the aisle would want you to commit to providing 
the committee the current plan of how many tests that you can 
produce right now, what the plan is, whether they are expected 
to be ready and how many people they will cover.
    And I don't know if you can do that, and make sure you work 
with our chairwoman in getting that information to us by the 
end of this week.
    Dr. Redfield. I can tell you that we are trying to stand up 
a national reporting mechanism that is going to put not just 
the CDC's test, not just the public health lab tests, but the 
LabCorp tests, the Quest tests, and the individual hospital 
labs so that we can have a single site where people can say how 
many tests have been done, how many tests are positive, and 
behind that we are trying to look at least in the public health 
system where, you know, what is our current inventory in the 
public health system.
    And I can, obviously, relate that to my colleagues to see 
if there is a way for us to do that in the clinical system.
    Ms. Tlaib. Yes. Yes.
    Dr. Redfield. But we will have--we will--we have it now, 
but it is incomplete because if the states truthfully lag in 
their reporting because they are actually trying to do----
    Ms. Tlaib. Yes. I don't know if that is a yes or no. But 
get us the plan. That would be great. I think one of the 
things, too, is, you know, I caution us because we are all so 
worried about the commercialized economy stopping.
    But we shouldn't be risking our lives for corporate greed. 
We should really be taking care of our families. And when we 
don't pass a supplemental that has been worked on hard from 
front line people of various departments of making sure we 
have, you know, people that have to not go to work.
    I mean, I am telling you one of my state agencies right now 
where you go get your IDs closed down because people didn't 
show up to work because they want to make sure they are getting 
protection, that they are being able to get access to testing 
and all those things, and I think it is really critically 
important that we understand that urgency because on the ground 
offices are being closed, businesses are being closed right 
now, not just large events.
    Chairwoman Maloney. OK. OK. Thank you.
    The gentlelady from California, Ms. Porter, is recognized 
for five minutes.
    Ms. Porter. Dr. Kadlec, for someone without insurance, do 
you know the out-of-pocket costs of a complete blood count 
test?
    Dr. Kadlec. No, ma'am. Not immediately.
    Ms. Porter. Do you have a ballpark?
    Dr. Kadlec. Out of--with a co-pay, ma'am?
    Ms. Porter. No, the out-of-pocket. Just the typical cost.
    Dr. Kadlec. I do not, ma'am.
    Ms. Porter. OK. The CB--a CBC typically costs about $36. 
What about the out-of-pocket costs for a complete metabolic 
panel?
    Dr. Kadlec. Ma'am, I would have to pass on that as well.
    Ms. Porter. Do you have any idea? Do you want to take a 
ballpark?
    Dr. Kadlec. I would say $75.
    Ms. Porter. OK, $58.
    Dr. Kadlec. Getting closer.
    Ms. Porter. How about Flu A? The Flu A test?
    Dr. Kadlec. Ma'am, again, I would take a guess at about 
maybe $50.
    Ms. Porter. $43. Flu--this is like ``The Price is Right.'' 
Flu B?
    Dr. Kadlec. Too high again. I would--I would probably say 
$44.
    Ms. Porter. That is good. How about the cost of an ER visit 
for someone identified as high severity and threat?
    Dr. Kadlec. I am sorry, ma'am. What was the question again?
    Ms. Porter. How about the cost of an ER visit for somebody 
identified as having high severity or high threat?
    Dr. Kadlec. High severity--ma'am, that is probably about 
$3,000 to $5,000.
    Ms. Porter. OK. That is $1,151.
    Dr. Kadlec. Too high again.
    Ms. Porter. This all totals up to $1,331. That is assuming 
they aren't kept in isolation. Isolation can add up for one 
family already $4,000, and fear of these costs are going to 
keep people from being tested, from getting the care they need, 
and from keeping their community safe.
    We live in a world where 40 percent of Americans cannot 
even afford a $400 unexpected expense. We live in a world where 
33 percent of Americans put off medical treatment last year, 
and we have a $1,331 expense, conservatively, just for testing 
for the coronavirus.
    Dr. Redfield, do you want to know who has the coronavirus 
and who doesn't?
    Dr. Redfield. Yes.
    Ms. Porter. Not just rich people but everybody who might 
have the virus?
    Dr. Redfield. All of America.
    Ms. Porter. Dr. Redfield, are you familiar with 42 CFR 
71.31--30, excuse me? 42 CFR 71.30. The Code of Federal 
Regulations that applies to the CDC. 42 CFR 71.30.
    Dr. Redfield. I think if you could frame the--what it talks 
about that would help me. I don't----
    Ms. Porter. OK. Dr. Redfield, I am pretty well known as a 
questioner on the health and--for not--not tipping my hand. I 
literally communicated to your office last night and received 
confirmation that I was going to be asking you about 42.7--42 
CFR 71.30.
    This provides the director may authorize payment for the 
care and treatment of individuals subject to medical exam, 
quarantine, isolation, and conditional release.
    Dr. Redfield. That I know about and----
    [Audio malfunction in hearing room.]
    Ms. Porter [continuing]. Commit to the CDC right now using 
that existing authority to pay for diagnostic testing free to 
every American regardless of insurance?
    Dr. Redfield. Well, I can say that we are going to do 
everything to make sure everybody can get the care they need.
    Ms. Porter. No. Not good enough. Reclaiming my time.
    Dr. Redfield, you have the existing authority. Will you 
commit right now to using the authority that you have vested in 
you under law that provides in a public health emergency for 
testing, treatment, exam, isolation without cost? Yes or no.
    Dr. Redfield. What I am going to say is I am going to 
review it in detail with CDC and the department----
    Ms. Porter. No. I am reclaiming my time.
    Dr. Redfield, respectfully, I wrote you this letter, along 
with my colleagues Rosa DeLauro and Lauren Underwood--
Congresswoman Underwood and Congresswoman DeLauro. We wrote you 
this letter one week ago.
    We quoted that existing authority to you and we laid out 
this problem. We asked for a response yesterday. The deadline 
and the time for delay has passed.
    Will you commit to invoking your existing authority under 
42 CFR 71.30 to provide for coronavirus testing for every 
American regardless of insurance coverage?
    Dr. Redfield. What I was trying to say is that CDC is 
working with HHS now to see how we operationalize that.
    Ms. Porter. Dr. Redfield, I hope that that answer weighs 
heavily on you because it is going to weigh very heavily on me 
and on every American family.
    Dr. Redfield. Our intent is to make sure every American 
gets the care and treatment they need at this time of this 
major epidemic and I am currently working with HHS to see how 
to best operationalize it.
    Ms. Porter. Dr. Redfield, you don't need to do any work to 
operationalize. You need to make a commitment to the American 
people so they come in to get tested. You can operationalize 
the payment structure tomorrow.
    Dr. Redfield. I think--I think you are an excellent 
questioner, so my answer is yes.
    Ms. Porter. Excellent. Everybody in America hear that. You 
are eligible to go get tested for coronavirus and have that 
covered regardless of insurance.
    Please, if you believe you have the illness follow 
precautions. Call first. Do everything the CDC and Dr. Fauci, 
God bless you, for guiding Americans in this time.
    But do not let a lack of insurance worsen this crisis.
    Dr. Redfield. And I would just like to echo what you said. 
It is a public health--a very important public health that 
those are--those individuals that are in the shadows can get 
the health care that they need during this--the time of us 
responding to this outbreak.
    Chairwoman Maloney. Well, thank you. And the Gentlelady 
from New Mexico, Ms. Haaland, is recognized for five minutes.
    [Audio malfunction in hearing room.]
    Ms. Haaland. Thank you, Madam Chair, and thank you, 
gentlemen for being here today. We really appreciate you 
answering our questions. Dr. Redfield, I want to start with you 
first. The first four cases of Coronavirus have been found in 
New Mexico, my state. We had a conference call with Governor 
Lujan-Grisham yesterday. She mentioned one of two of the cases 
is a couple that lives in in Segura, New Mexico. Small town of, 
you know, seventy-thousand people perhaps. And they were on a 
cruise ship themselves. They came back to New Mexico. Nobody 
notified the state or the health department about them being on 
a cruise ship where coronavirus was found. So, they were in New 
Mexico just doing their normal, everyday life for ten entire 
days before the governor or the state was alerted to have them 
tested and it turned out they were positive. So, I am, you 
know, we're of course worried in a small town like that the 
virus could spread pretty rapidly. And so I want to, a lot of 
attention has been paid to testing. Will we have adequate 
testing? And I, I'd like to know, this adequate testing, I have 
to believe it will reveal an exponential number of cases 
throughout the country. How, what is the responsibility to 
just, make sure that we're getting this information out to 
people. People on a cruise ship where coronavirus was known to 
be found shouldn't be walking around for ten whole days before 
we're alerted to that fact.
    Dr. Redfield Thank you very much Congresswoman.
    Obviously, the complexity of tracking down people, whether 
it is ships or planes, is a complicated issue. First, you have 
to have accurate contact information and I can tell you one of 
the things with the interim Federal rule we recently did for 
airlines, in the past maybe 20 to 30 percent of the information 
we would get would be actually actionable.
    I am happy to say now we are probably over 90 percent. We 
are getting the manifests from cruise ships and working with 
local health departments to try to track down these individuals 
when we do have a confirmed case.
    And this is why Dr. Fauci and all of us have now really 
weighed heavily this is not the time to be cruising. We really 
do realize that these are environments that can really amplify 
transmission.
    Ms. Haaland. Thank you. Thank you, Dr. Redfield. Thank you.
    I want to turn our attention--I think you have mentioned--
you know, all of you have mentioned several times today that 
big crowds need to be avoided. Is that correct?
    And I want--first of all, I want to just talk about our 
president for a moment. On March 8, he tweeted that fake news 
media is doing everything possible to make us look bad. On 
February 28, he called the coronavirus a Democratic hoax in 
the--in front of a huge rally, which was on national TV.
    A Brazilian official who was--who met with President Trump 
at Mar-a-Lago has just tested positive for the virus, and he 
has just boasted recently about his March 25 rally in Florida 
that it is all sold out and he has yet to cancel it.
    And this behavior--this is the behavior that our country 
has to contend with. He is our president. He is the leader of 
our country.
    You have been sitting here for hours and yesterday telling 
us that we need to avoid big crowds. And I am going to tell you 
that I have Republicans in my district who I care deeply about. 
I don't want them getting infected.
    Every single one of us here have constituents all over our 
districts who we don't care who they support for president--we 
don't want them getting sick.
    And I applaud my Governor, Michelle Lujan Grisham, who just 
canceled all mass gatherings in our state, and I almost feel 
like saying the president can do whatever he wants. He is an 
adult.
    He can be careless with his own health if he wants to. That 
is his choice. But the millions of Americans who would go to a 
rally because he has told them that it is a hoax, they don't 
know the truth, apparently, and it is up to all of us to make 
sure that they do know the truth.
    And I understand the position you are in. If you can't tell 
the president to his face stop all your rallies, cancel every 
single rally that you have planned because American lives are 
at stake, then I implore you to give that message to every 
Governor of every state in this country.
    We have to--we have to stop this where it is, and I 
appreciate you being here.
    And thank you, Madam Chair. I yield.
    Mr. Clay.
    [Presiding.] The member's time has expired.
    The gentleman from Maryland, Mr. Sarbanes, is recognized 
for five minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman. Thanks to the panel.
    Dr. Fauci, I have been trying to sort of distill the 
testing issue against the backdrop of moving from containment 
to mitigation in my mind and I would like you to maybe just 
comment on it very briefly.
    Our failure to get the testing done early in effect means 
we missed the containment window and now have to move rapidly 
to the mitigation stage of this thing.
    In other words, you have kind of been intimating don't wait 
for the surveillance testing. Don't wait for the person to 
person testing to make a judgment about what we have to do. We 
are past containment, well past it.
    There might have been a moment when we could have had an 
effective strategy around there if the testing had been 
deployed better. But we now got to go straight to mitigation in 
anticipation of the fact that whatever testing will now happen 
will show us that the community spread has been happening for 
weeks and so forth.
    Is that a fair characterization?
    Dr. Fauci. With all due respect, sir, it is not totally 
fair and let me, very briefly, try and integrate what you said, 
part of which was true but part of which I think is maybe a 
little misleading.
    First of all, clearly, we have said many times and I have 
said publicly we had a problem with the testing and if we 
needed the kind of surveillance we are not there yet.
    I don't think you can draw a direct line to that lack of 
having it in the beginning to the fact that we are now doing 
mitigation.
    No. 2----
    Mr. Sarbanes. Fair enough. Fair enough.
    Dr. Fauci [continuing]. We don't--you don't necessarily 
give up containment when you go to mitigation. You can do some 
containment at the same time you are doing mitigation.
    But I would emphasize, and I am glad you are giving me the 
opportunity to state it yet again because you can never state 
it too much, is that right now all of us, regardless of what 
testing is going on, need to be doing the kind of distancing, 
avoiding crowds, teleworking where possible.
    I said it many times and I will say it again, this is not 
business as usual. If you live in a state or a region where 
there are just a few or no cases, it doesn't matter. You really 
need to do the----
    Mr. Sarbanes. Let me ask you--thank you. That is a very 
good clarification.
    Let me ask you a science question----
    Dr. Fauci. Sure.
    Mr. Sarbanes [continuing]. Just so I understand. If 
somebody got the virus three, four weeks ago, just thought they 
had the flu or a bad cold or something, recovered from it, they 
are now essentially immune from getting the virus again. Is 
that correct?
    Dr. Fauci. We haven't formally proved it. But it is 
strongly likely that that is the case.
    Mr. Sarbanes. OK.
    Dr. Fauci. Because if this acts like any other virus, once 
you recover you won't get reinfected.
    Mr. Sarbanes. And if they then came down with another cold 
not related to coronavirus--thought maybe it was coronavirus, 
got tested--would that test show that they had gotten the 
coronavirus or not?
    [Audio malfunction in hearing room.]
    Dr. Fauci. If you do an antibody test, if you wait weeks 
and months after you have recovered, the antibody test will 
tell you whether that person was formally infected with 
coronavirus.
    Mr. Sarbanes. OK. Following up on that, if somebody has the 
immunity and in that sense is not a carrier, they could still 
transmit, right, if they were in a space where they got the 
virus somehow on their skin or something else so they could 
still put someone else at risk even though in their mind they 
are thinking, I am now immune and therefore I am safe to move 
around, in a sense. Is that true? No?
    Dr. Fauci. Absolutely not.
    Mr. Sarbanes. OK.
    Dr. Fauci. Thank you for asking the question.
    So, let us say I get infected and whether I get sick or not 
I clear the infection from my body. I do two tests 24 hours 
apart, which is the standard to say I am no longer infected.
    A month and a half from now you do an antibody test and 
that test is positive, I am not transmitting to anybody because 
my body has already cleared the virus.
    So, even though my antibody test says you were infected a 
month or two ago, right now, if there is no virus in me, I am 
not going to be able to transmit it to anyone.
    Mr. Sarbanes. Asking a slightly different question, I am 
going to run out of time so I will come down maybe or I will 
ask you offline so I understand that better.
    I did, in the last 25 seconds here, though, just want to 
say that I would like to followup Dr. Kadlec, I believe, in 
terms of the Federal Government's plans around telework 
because, obviously that is going to be critical in terms of 
continuity of operations.
    A lot of folks are already doing that on a discretionary 
basis. But I am going to be interested in what the agency wide 
response is there.
    I do--I do have something I would like to enter into the 
record, Madam Chair, which is a--is testimony from AFTE in part 
relating to the importance of telework and what they would like 
to see in that space, and I would ask unanimous consent to 
submit that for the record.
    Thank you.
    Mr. Clay. The gentleman from California is recognized for 
five minutes.
    Mr. Gomez. Thank you, Madam Chair.
    Thank you all for being here. Last night, President Trump 
announced that starting on Friday at midnight he is suspending 
all travel from and to Europe to the United States for the next 
30 days. Only the United Kingdom and appropriately screened 
Americans are exempted from this ban.
    The CDC previously recommended that all Americans avoid 
travel to China, Iran, South Korea, and Italy. It has 
recommended that older adults or those with chronic medical 
conditions propose postpone travel to Japan.
    Dr. Fauci, will a travel ban like this have significant 
impact on reducing the community spread of the coronavirus--
that is, cases that are already in the United States?
    Dr. Fauci. Yes, that is the--the answer is a firm yes and 
that was the reason, the rationale--the public health rationale 
why that recommendation was made.
    Because if you look at the numbers it is very clear that 70 
percent of the new infections in the world are coming from that 
region, from Europe, seeding other countries. Firs thing.
    Second thing, of the 35 or more states that have 
infections, 30 of them now or most recently have gotten them 
from a travel-related case from that region. So, it was pretty 
compelling that we needed to turn off the source from that 
region.
    Mr. Gomez. Can I--let me--so I have been in a lot of the 
briefings. I have been listening to you very carefully. What 
changed between, you know, when you were here to last night 
when it--to all of a sudden impose this ban, this travel ban?
    Dr. Fauci. Yes. Well, we, as you probably know, as I 
mentioned, we meet physically once a day every day, conference 
calls and telephone calls during the day between briefings, and 
what happens is that things evolve as you see the cases and 
when you look at the data all of a sudden we had China being 
the seed, and we did that with China.
    And then as the days and weeks get by it became clear it 
wasn't China anymore. It was another region.
    Mr. Gomez. So, something changed, right? So, this was 
always an option that was always on the table.
    Dr. Fauci. Yes. But the dynamics of the outbreak changed. 
It shifted from a China to the rest of the world to Europe to 
the rest of the world.
    Mr. Gomez. And you yesterday quoted Gretzky. You want to be 
where the puck is.
    Dr. Fauci. Right.
    Mr. Gomez. Not where it is at. Where the puck is going to 
be.
    Dr. Fauci. Yes.
    Mr. Gomez. Do you expect that the administration will issue 
additional travel restrictions in the future?
    Dr. Fauci. I think if, in fact, the dynamics of the 
outbreak mandates that, they would seriously consider that. I 
can't say yes or no. But I can tell you it would be seriously 
considered.
    Mr. Gomez. OK.
    Dr. Redfield, what other countries is the CDC watching for 
similar recommendations?
    Dr. Redfield. Well, as Dr. Fauci said, you know, clearly, 
it was Korea and Italy and Iran that really became our next 
epicenters. Unfortunately, because Italy spread to the region, 
now we really have a major regional outbreak now in Europe.
    We are continuing to really watch the whole world. At this 
point in time, it really is Iran, Korea, and the mainland 
Europe that are the epicenters right now and with Europe 
driving the global outbreak for sure for the last couple of 
days.
    Mr. Gomez. OK. One of the things that has been expressed is 
that the president also warned older Americans to avoid 
nonessential travel to crowded places. CDC has recommended that 
vulnerable individuals avoid travel to--such as long plane 
rides and, in particular, avoid cruises.
    I know that this means older adults with chronic health 
conditions. What are older adults? How do you define that?
    I mean, that is not a loaded question. I am just----
    Dr. Fauci. The reason I laugh, my standard answer is 
anybody older than me.
    [Laughter.]
    Dr. Fauci. But that is not a good answer. You know, 
generally, it is 60, 65 years old.
    Mr. Gomez. In here in Congress--young and I am 45. So, what 
does that tell you?
    Dr. Fauci. That is the general. But I think----
    Mr. Gomez. What is the age?
    Dr. Fauci. Generally, people refer to it as 60, 65 years 
old as elderly. However, the thing we need to point out that is 
important is that there is numerical age and there is 
physiological age.
    There is a great deal of variability in the vulnerability 
of a person based purely on their age. You could have a 75-
year-old person who is vigorous and has a really robust immune 
system.
    You can have somebody that is 60, 65 not nearly good. It 
isn't linear based on just your age.
    Mr. Gomez. The reason why is--the reason why we are asking 
these questions is that the constituents really want specifics, 
right. Like, if I am above 60 and I am a marathon--you know, I 
am 60 and I am out of shape then maybe I shouldn't be 
traveling. Now, if I am 70 or older and I am a marathoner and I 
do X, Y, and Z and, like, everything looks great, then it might 
not be as severe, correct?
    Dr. Redfield. Yes, I was just going to say this is driven 
by the mortality of this infection. Clearly, individuals that 
are under 30, under 40, under 50, we have seen these 
individuals may get a really severe cold and they recover or 
they may be asymptomatic.
    When you look at the mortality in Italy, the average age of 
death was somewhere between 82 and 84. When you look at the 
overall mortality that we are seeing across China and 
everything, it is really in the 70's.
    So, we are really trying to get the most vulnerable out of 
an environment where they may catch this virus.
    Chairwoman Maloney.
    [Presiding.] The member's time has expired.
    Mr. Gomez. Thank you.
    Chairwoman Maloney. The gentlelady from the District of 
Columbia, Ms. Eleanor Holmes Norton, is recognized for five 
minutes.
    Ms. Norton. Thank you, Madam Chair.
    Gentlemen, we are here in the Nation's capital where a 
state of emergency has been declared by the mayor of the 
District of Columbia.
    This is a tourist Mecca. Millions come from all over the 
world and all over the country. I am concerned about our health 
care providers and our first responders.
    Social distancing is not really an option for them. They 
are, in a real sense, the last line of defense. For example, in 
New York we heard of doctors and nurses who have reportedly 
been exposed to the virus.
    Let me ask you, Dr. Redfield, can any medical provider who 
wants to be tested today be tested?
    Dr. Redfield. Again, I think that would be a decision that 
the hospital would make and the individual's physician. But 
your point, the importance of protecting our providers with the 
proper infection control procedures is critical. We put out 
guidance and we need to continue to do that.
    Ms. Norton. So, there needs to be some prioritization of 
who--obviously, people who have been exposed. But if we get 
beyond that, people who expose themselves, it seems to me, 
ought to be given first priority.
    Mr. Kadlec, let me ask what HHS is providing--is advising 
providers to do to ensure that there is not a shortage of 
medical staff.
    Dr. Kadlec. Yes, ma'am. And I think that is a critical 
issue here in terms of evaluating not only the personal 
protective posture of physicians who are managing patients with 
this particular virus but also those that are working in 
emergency rooms and in other areas where there is a risk they 
could be exposed in that setting.
    A couple areas that are being considered are what are the 
particular work-related rules as would require people to be 
furloughed from work if they were exposed. There was a question 
earlier about someone being in an appropriate protective 
posture, exposed, and then there was a question whether they 
would even be furloughed.
    And, again, it gets back to your possible question of 
testing. If that is an appropriate intermediate means to keep a 
health care worker on the job in lieu of that kind of absence 
or excuse from work.
    Ms. Norton. We awoke this morning to find that the World 
Health Organization had officially declared this to be a 
pandemic. I am worried about personal protective equipment. I 
guess I should ask you, Mr.--Dr. Kadlec.
    Will shortages of personal protective equipment like face 
masks and gloves, et cetera, hamper public health response? 
What priority is given to who gets these--this vital equipment?
    Dr. Kadlec. Well, ma'am, that is a great question because, 
quite frankly, there is a potential risk. Much of what we get 
is sourced from overseas.
    We are working actively with manufacturers and distributors 
to make sure two things happen. One is that supply chains are 
uninterrupted. The second thing is that allocations go 
preferentially to health care workers over others.
    Ms. Norton. Is the--is the Health and Human Services 
Department taking any steps here in the United States to boost 
production of these supplies----
    Dr. Kadlec. Yes, ma'am, they are.
    Ms. Norton [continuing]. Of these supplies so that people 
are--I mean----
    Dr. Kadlec. Yes, ma'am. Yes, ma'am.
    Ms. Norton [continuing]. Who is manufacturing these 
supplies? Is that continuing?
    Dr. Kadlec. Yes, we are and, basically, we are--we have 
released a request for proposals for a half a billion N95 
masks. To boost production, we are working with manufacturers 
to make sure that they have the raw materials which are sources 
to the United States so they can surge and many of them----
    Ms. Norton. So, all the people who make----
    Dr. Kadlec. Yes, ma'am.
    Ms. Norton. All these supplies, the gloves and--they are 
all boosting?
    Dr. Kadlec. Yes, ma'am. They are--they are boosting them 
and looking to source it from the--one thing that I mentioned 
earlier was, again, the importance for liability protection for 
some of these manufacturers, particularly around N95 masks.
    Ms. Norton. Then that should be in our bill then that we 
are working on that?
    Dr. Kadlec. Yes, ma'am. That is a must pass bill because 
that is critical to enable more----
    Ms. Norton. Well, we will be sure that--because we are 
working on a bill as I speak, trying to make it a bipartisan 
bill.
    Finally, let me ask you, with--about Italy, because Italy 
is the worst case scenario that can educate us about what is--
what could happen to us, and I understand that doctors 
anticipate hospitals running out of beds within a week in Italy 
if the spread continues.
    If the rates continue here--or let me ask you, are we doing 
anything to keep the United States from running out of beds, 
for example, in Washington State?
    Dr. Kadlec. Yes, ma'am. In fact, we are doing a couple 
things there and the state is working with HHS and doing things 
on their own.
    But they are using alternate care facilities to offload 
some of the--some of the people who were moderately ill and 
putting them in settings that segregate them from regular 
hospitals, so it won't----
    Ms. Norton. And what kind of facilities?
    Dr. Kadlec. Motels, for example. And the same thing is 
happening in the state of California. HHS is working with the 
state there to basically identify alternate care facilities for 
low acuity patients.
    The one thing that is a concern is whether or not high 
acuity beds, intensive care beds, could be at risk and we are 
monitoring that very carefully.
    And, again, looking for alternative solutions that we could 
use to make sure that we can take care of anyone who has this 
virus but, more importantly, take care of people who don't have 
the virus but who have other medical needs.
    Chairwoman Maloney. Gentlelady's time has expired.
    And the gentleman from Missouri, Mr. Clay, is our last 
member to question today.
    Mr. Clay. Thank you, Madam Chair, for this hearing. And 
yes, I am batting cleanup. So, I would like to ask about a 
story that broke yesterday.
    According to Reuters, since mid-January the NSC has ordered 
HHS to classify top-level discussions related to the 
coronavirus. The topics of these discussions have reportedly 
included, and I quote, ``the scope of infections, quarantines, 
and travel restrictions.''
    Dr. Kadlec, is it true that HHS has been holding classified 
coronavirus hearings?
    Dr. Kadlec. So, we are holding them in a classified room. 
But the nature and the content of those conversations are not 
classified.
    So, we have been doing secure video conferencing across the 
interagency and that requires going into a classified space. I 
could see how it would be misinterpreted as such. But the 
nature of the conversations are unclassified.
    Mr. Clay. And so how many meetings since mid-January have 
been held in those----
    Dr. Kadlec. Too numerous to count, honestly.
    Mr. Clay. Too numerous----
    Dr. Kadlec. The--we are meeting several times a day if not 
more at different levels of the organization to basically 
address critical questions as it relates to the safety and 
health of Americans, the adequacy of supplies, the adequacy of 
our health care system.
    Mr. Clay. Yes, but it is my understanding that some 
officials are left out because they don't have the correct 
level of security clearance.
    Dr. Kadlec. Sir, that is an administrative challenge 
sometimes because these secure places are administered by 
classification rules that have nothing to do with the content 
of the conversation but just the physical access to the place.
    Mr. Clay. Really?
    Dr. Kadlec. So, these individuals have to be escorted in 
and, again, the nature of the conversations have to remain 
unclassified in those settings and they are unclassified by the 
virtue of the content.
    Mr. Clay. Does that inhibit our ability in any way to get 
the expertise we need into the room?
    Dr. Kadlec. No, sir. I think in the case of the White House 
situation room, which is the highest level of classification 
you can have, we have all the appropriate people in the room to 
make those decisions, including individuals who have no 
clearance--security clearance at all.
    Mr. Clay. According to one official, because these meetings 
have been held in SCIF, critical government experts have been 
then excluded in these discussions and this practice, quote, 
``seemed to be a tool for the White House, for the NSC to keep 
participation in these meetings low.''
    Are you familiar with 28 CFR Section 17.22?
    Dr. Kadlec. Well, sir, I would have to--sir, if you would 
hum a few bars I could probably guess it. But I worked on the 
Senate Intelligence Committee and I have to admit I believe it 
is related to the security practices in these----
    Mr. Clay. Here is what the section describes. The 
information shall not be classified in order to conceal an 
efficiency violations of law or administrative error to prevent 
embarrassment to a person, organization, or agency, to restrain 
competition or to prevent or delay release of information that 
does not require protection in the interests of national 
security.
    Information that has been declassified and released to the 
public under proper authority may not be reclassified.
    Do you know that we have discussed at length today the need 
for our government agencies to be transparent with the American 
people and they deserve answers to be able to protect 
themselves and their families from this pandemic?
    Is the information being discussed in these meetings all 
actually classified under the definition of classified security 
information?
    Dr. Kadlec. They are totally unclassified and I think it 
has been the intent of Secretary Azar and our department to be 
radically transparent, to make sure that anything that we can 
share and I will allude to my colleagues on the right of me, 
Dr. Fauci and Dr. Redfield, who have been participants, to 
offer their observations as well.
    Mr. Clay. Go ahead, Doctor.
    Dr. Fauci. Totally--I totally agree with Dr. Kadlec. There 
really is no function or classification. It is merely an access 
thing, and there are people that we need are in there and there 
is nothing that we say in there that we are not--that we are 
afraid to say to you right here.
    Mr. Clay. OK. And so you would be willing to share that 
information with us that----
    Dr. Fauci. We have been. In fact, all the questions we have 
asked are reflective of what has gone on in that room.
    Mr. Clay. Well, and I appreciate that. Appreciate your 
openness and transparency, and I look forward to working 
together to resolve the issues that we face as a Nation.
    And with that, I yield back, Madam Chair.
    Chairwoman Maloney. The gentleman yields back. And I just 
want to thank all of you for testifying.
    Would you like to make a statement, Mr. Redfield?
    Dr. Redfield. Chairwoman, I----
    Chairwoman Maloney. Doctor--Dr. Redfield.
    Dr. Redfield. That is all right. I would like to just make 
two clarifications, one of which I did yesterday and one of 
which I did today, if I could have a second to----
    Chairwoman Maloney. Absolutely.
    Dr. Redfield. So, yesterday, I want to clarify that when I 
was asked about manufacturing of the tests, the original tests, 
I just want to clarify that CDC did manufacture the original 
CDC test that we used at CDC and we also manufactured the 
initial test we sent out to states, and IDT manufactured the 
kits after that. So, I just want to get that on the record.
    Second, in my comments today I wanted just to clarify that 
we are currently examining all avenues to try to ensure that 
the uninsured have access to testing and treatment, and we are 
encouraging the use of the federally qualified health centers 
that can do this at reduced or free, and we will continue to 
update both the Congress and the public on all available 
resources for this population.
    Chairwoman Maloney. Thank you for clarifying that.
    Yes, uh-huh?
    Dr. Kadlec. Madam Chairman, I do have one errata from 
yesterday. I misspoke. When talking about BARDA I mentioned 
they had 53 FDA approvals I was incorrect. It is actually 54.
    Chairwoman Maloney. That is very accurate. Would anyone 
else like to make a statement?
    Well, I want to thank all of your for testifying today. We 
realize that this is the third testimony, third meeting that 
you have taken today. We appreciate it. We appreciate you 
coming back. Thank you for your public service, your hard work, 
your dedication.
    And particularly, I want to thank Dr. Fauci for serving six 
presidents. Six presidents. And speaking so truthfully and 
honestly to the public as all of you have. I can't tell you how 
many people have contacted me that they now understand more 
about it.
    They feel better about it. You have truly performed an 
incredibly important public service by speaking really to the 
American people, as you are today, on this panel.
    We thank you so, so very much. And I do want to say a very 
special thank you to Mr. Jordan. This is his last day as 
ranking member of this committee.
    We all thank him for his service. He will be moving to 
ranking member on the Judiciary Committee but not leaving the 
committee. So, we can continue working together.
    And I understand that you will be taking your staff with 
you. So, I want to thank them for their excellent hard work and 
also my own staff that has really worked on this hearing and on 
all of the matters before it.
    I just also understand that you will be going next door, as 
I understand it. So, I am wondering if you would--I yield to 
you. I am very sorry you are leaving, quite frankly, and I have 
enjoyed working with you.
    Mr. Jordan. Same here, Madam Chair. That was very nice and 
I appreciate those kind words. I am not going far. I will be 
sitting right here, so I would just be one seat further. But 
thank you for your--for your work and it has been a pleasure to 
work with you.
    Thank you to our witnesses again and for the work you are 
doing for the American people.
    Chairwoman Maloney. The American people are very grateful.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the chair, which will be forwarded to the 
witnesses for their response.
    I ask our witnesses to please respond as promptly as you 
are able. This hearing is adjourned.
    [Whereupon, at 12:56 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
